<html>
<title> - AN OVERVIEW OF THE DEPARTMENT OF HOMELAND SECURITY FEDERAL ADVISORY COMMITTEES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                     AN OVERVIEW OF THE DEPARTMENT
            OF HOMELAND SECURITY FEDERAL ADVISORY COMMITTEES

=======================================================================

                              FULL HEARING

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 25, 2007

                               __________

                           Serial No. 110-61

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
48-956                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009


                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON-LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     1
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U.S. Virgin Islands........................................    19
The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas.............................................    27
The Honorable David Davis, a Representative in Congress From the 
  State of Tennessee.............................................    21
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    23
The Honorable Al Green, a Representative in Congress From the 
  State of Texas.................................................    53
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas........................................     2
The Honorable David G. Reichert, a Representative in Cogress From 
  the State of Washington........................................    25
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California........................................    16
The Honorable Christopher Shays, a Representative in Congress 
  From the State of Connecticut..................................    19

                               Witnesses

Mr. Robert Flaak, Director, Committee Management Secretariat 
  Office of Governmentwide Policy, General Services 
  Administration:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
Mr. Dug Hoelscher, Executive Director, Homeland Security Advisory 
  Committees, Department of Homeland Security:
  Oral Statement.................................................     9
  Prepared Statement.............................................    10

                                Panel II

Mr. Randy Beardsworth, Former Assistant Secretary, Strategic 
  Plans, Department of Homeland security:
  Oral Statement.................................................    29
  Prepared Statement.............................................    31
Mr. Jeff Gaynor, Former Director, Emergency Response Senior 
  Advisory Committee and Critical Infrastructure Task Force:
  Oral Statement.................................................    36
  Prepared Statement.............................................    38
Mr. Al Berkeley, Chairman and CEO, Pipeline Trading Systems, LLC:
  Oral Statement.................................................    41
  Prepared Statement.............................................    42
Ms. Anne Weismann, Chief Counsel, Citizens for Responsibility and 
  Ethics in Washington:
  Oral Statement.................................................    44
  Prepared Statement.............................................    46

                                Appendix

Additional Questions and Responses:
  Responses from Mr. Randy Beardsworth...........................    57
  Responses from Mr. Doug Hoelscher..............................    57
  Responses from Ms. Anne L. Weismann............................    59


                     AN OVERVIEW OF THE DEPARTMENT
                      OF HOMELAND SECURITY FEDERAL
                          ADVISORY COMMITTEES

                              ----------                              


                       Wednessday, July 25, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                            Washington, DC.
    The committee met, pursuant to call, at 10:07 a.m., in room 
311, Cannon House Office Building, Hon. Bennie Thompson 
[chairman of the committee] presiding.
    Present: Representatives Thompson, Sanchez, Christensen, 
Etheridge, Cuellar, Carney, Green, Shays, Reichert, McCaul, and 
Davis of Tennessee.
    Chairman Thompson. [Presiding.] I would like to convene the 
hearing.
    Today's hearing is about the effectiveness of the Federal 
advisory committees within the Department of Homeland Security.
    The department has 29 Federal advisory committees, 19 
subcommittees, the equivalent of 33 Federal support staff, and 
nearly 500 members drawn from both the public and private 
sector.
    To support these committees, the Department spent 
approximately $6 million in fiscal year 2006 and plans to spend 
approximately $8 million in fiscal year 2007.
    This may not seem like a great deal of money. However, as 
the authorizing committee for this department, we must ask: 
What do the American people get for the dollars that have been 
spent? And I am sorry to report that the answer to this 
question is unclear.
    Advisory committees have been around for many years. These 
committees can be a good thing. Advisory committees allow 
members of the public to express their opinions on policies 
that will affect the ways in which they go about their daily 
lives.
    Advisory committees also include representatives from the 
private sector. It is no secret that the policies put forth by 
the department have an effect not only on how the private 
sector conducts business but on the profitability of those 
businesses.
    Advisory committees provide a seat at the table to those 
who will be affected by the decisions that are made by the 
government. And that is what representative government should 
do.
    However, the beneficial function of these committees is 
meaningless if the department does not listen to them. The good 
ideas that may be born in these committees are unclear if there 
is no way to track them.
    The objectivity of these committees is compromised if their 
composition is not both balanced and diverse. It is up to the 
department to assure that the people who serve on these 
committees' views will be heard, their recommendations will be 
considered, and their ideas will be received with openness.
    And it is up to the department to ensure this Congress that 
there is transparency in the process, accountability in the 
result, and that conflicts of interest do not pervade their 
operation. I am not convinced that these goals are being met.
    We are here today to hear from the department and 
individuals who served on advisory committees.
    I want to thank the witnesses for appearing today, and look 
forward to their testimony.
    And now we will hear opening statements from the ranking 
member, Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman. And thank you for 
holding this important hearing.
    This committee is conducting a bipartisan examination of 
Federal advisory committees managed by the Department of 
Homeland Security to assess their utility, cost-effectiveness, 
management and how well they represent the private sector.
    Advisory committees can be created administratively or by 
statute. The topics range from information security to customs 
fees to navigating the Great Lakes.
    The committee will assess whether the existing 
organizational structure within DHS for managing the advisory 
committees should be strengthened. We are also reviewing 
whether some of these advisory committees should be 
consolidated, phased out, or replaced by a mission more 
relevant for the Department of Homeland Security.
    As this review proceeds, it is important to keep it in 
context. Currently, there are approximately 900 advisory 
committees throughout the Federal Government, with a total 
budget of over $620 million. Of that, DHS has 27 active 
committees, with an accumulate annual budget of approximately 
$8 million.
    Many of the DHS advisory committees were established before 
DHS was formed in March of 2003 and are so new that they have 
not yet had the chance to submit recommendations. DHS is also 
currently conducting its own internal review to improve the 
operation of their advisory committees.
    Today we will hear from our witnesses on their views on how 
the advisory committees at DHS are working and whether 
additional steps can be taken to strengthen their 
effectiveness. I look forward to hearing from these witnesses, 
and yield back the balance of my time.
    Chairman Thompson. Thank you very much.
    Other members may submit their statements for the record.
    We have two witnesses for our first panel: Doug Hoelscher, 
he is executive director of DHS Homeland Security Federal 
Advisory Committees; Mr. Robert Flaak is director of Committee 
Management Secretariat, Office of Government-Wide Policy, U.S. 
General Services Administration.
    Gentlemen, you have 5 minutes to summarize your written 
testimony for the committee.
    We will begin with Mr. Hoelscher.

   STATEMENT OF DOUG HOELSCHER, EXECUTIVE DIRECTOR, HOMELAND 
 SECURITY ADVISORY COMMITTEES, DEPARTMENT OF HOMELAND SECURITY

    Mr. Hoelscher. Thank you, Chairman Thompson and 
distinguished committee members, for the opportunity to discuss 
the role of Federal advisory committees at the Department of 
Homeland Security, or DHS.
    Our advisory committees add much value to the new 
department by bringing the perspectives of our various state, 
local and private-sector partners to the policy table. As 
members of this committee well-appreciate, DHS depends on its 
various partners to successfully execute our mission.
    As executive director of the Homeland Security advisory 
committees, I have a dual role. First, I oversee the staff of 
the committee management office, or CMO, which manages 
coordination of DHS advisory committees and ensures compliance 
with the Federal Advisory Committee Act, or FACA. Second, I 
directly manage the staff supporting the Homeland Security 
Advisory Council, or HSAC, one of our 27 chartered committees.
    Starting the department required a lot of work, and we have 
made great progress in the last 4 years. We inherited 24 
advisory committees with varying responsibilities and 
procedures from the departments of Commerce, Defense, Justice, 
Transportation, Treasury, the Federal Emergency Management 
Agency, or FEMA, and the Executive Office of the President.
    We ensure that advisory committees are serving a useful 
purpose and terminate those committees that are no longer 
relevant. We only create new committees when necessary.
    The CMO monitors reporting compliance for the FACA database 
and ensures that broad professional perspectives are included 
in each committee's membership. We have several initiatives 
planned for the next year that will establish a lasting 
foundation for the committee management program and further 
standardize committee actions, including the revision of the 
department's management directive and creation of a Web page 
where individuals can learn more about FACA committees.
    Each committee has a designated Federal officer, or DFO, 
that is ultimately responsible for FACA compliance and for 
their committee's day-to-day management. We recently worked 
with human resources to strengthen the accountability of DFO 
responsibilities with their performance appraisals. We will 
hold a best-practices DFO group meeting this fall and are 
planning an Internet site that DFOs and other DHS personnel can 
use to access key documents.
    The committee management process improvements have 
increased the accountability and openness of our committees. I 
would like to now highlight some examples of policy 
improvements our advisory committees have accomplished.
    In my time of overseeing the HSAC, we have improved 
feedback to members on previous recommendations. Through the 
HSAC, I have seen firsthand how advisory committees help the 
department tackle current and future challenges and improve 
policy decisions by including the perspectives of our various 
partners and adding expertise not available from Federal 
employees.
    The HSAC is composed of experts from state and local 
governments, first-preventer and-responder communities, 
academia, and the private sector. The council provides advice 
to Secretary Chertoff and the department's leadership on the 
spectrum of homeland security issues.
    The HSAC has a history of focusing on tough issues. From 
recommendations on expediting funding to our state and local 
partners, developing the fusion center concept, honestly 
assessing the department's culture, or looking at the long-term 
future of terrorism, the HSAC has helped us progress. For 
example, the ``Future of Terrorism'' report increased DHS's 
focus on the radicalization issue and improved outreach to 
Muslim Americans.
    In June, Secretary Chertoff tasked the HSAC with the 
following: first, assess the utility, viability and potential 
structures of alternative tools to acquire essential 
technology; two, provide recommendations on core priorities the 
department should embrace in the administration transition; and 
third, help refine and focus the Secure Freight Initiative's 
concept of operation.
    The work of the Commercial Operations Advisory Committee, 
or COAC, and the National Maritime Security Advisory Committee, 
is another example of committees adding value to the 
department. These committees improve the draft strategy to 
enhance international supply chain security, addressing 
stakeholder concerns by clarifying departments programs, 
recovery methods, and facility and vessel security plans.
    The continuing engagement of both these committees during 
the next 3 years will help balance the needs of security with 
the facilitation of trade. This also demonstrates 
interdepartment coordination, as each committee is in a 
different component.
    There are many more examples of ways our advisory 
committees have helped us move forward in our first 4 years. I 
am truly inspired by the selfless dedication of our volunteer 
advisory committee members in advancing the homeland security 
mission, and I am proud to serve alongside the men and women at 
the Department of Homeland Security.
    Thank you for the opportunity to highlight an important 
avenue of empowering our homeland security partners. I look 
forward to our future work together.
    Chairman Thompson, distinguished members, I look forward to 
your questions.
    [The statement of Mr. Hoelscher follows:]

                  Prepared Statement of Doug Hoelscher

I. Opening Remarks
    Chairman Thompson, Congressman King, and the distinguished members 
of the Committee. Thank you for the opportunity to speak with you today 
about the Department of Homeland Security's federal advisory 
committees.
    In March 2006, I was appointed Executive Director of the Homeland 
Security Advisory Committees. In this capacity, I serve the dual role 
of coordinating the activities of our twenty-seven (27) active federal 
advisory committees and directly manage one of these bodies, the 
Homeland Security Advisory Council (HSAC). I oversee the staff of the 
Committee Management Office (the CMO), which coordinates the 
establishment, structure, and legal compliance of the Department's 
advisory committees, and the staff dedicated specifically to HSAC. I 
will speak broadly to the structure and activities of the Department's 
advisory committees and specifically to that of the HSAC.
    The Department of Homeland Security, perhaps more than any other 
federal department, depends on its state, local, and private sector 
partners to accomplish its mission. Through their volunteer members, 
our federal advisory committees, provide an important avenue to empower 
our various partners and bring outside-the-beltway perspectives to the 
policy table. We have very active advisory committees. In managing them 
we have made great progress since DHS was established, but there is 
more work ahead.

II. Overview of Federal Advisory Committee Act of 1972
    Our advisory committees are part of a larger Federal initiative to 
tap relevant external perspectives to help formulate sound policy. The 
advisory committee program is governed by the Federal Advisory 
Committee Act of 1972, commonly known as FACA. FACA enhances public 
openness and accountability of advisory committees, controls undue 
influence of special interests by balancing committee membership; and 
reduces wasteful expenditures on advisory committees by establishing 
overall management controls. These controls monitor advisory committee 
costs and identify and eliminate unproductive and/or unnecessary 
committees. FACA places limits on the function and duration of advisory 
committees and stipulates certain oversight requirements. My colleague 
on this panel, Mr. Robert Flaak, from the General Services 
Administration, is better positioned to discuss the details of FACA.

III. History of Advisory Committees at Department of Homeland Security
    When the Department of Homeland Security was formed in 2003, the 
operations of twenty-two (22) existing federal agencies dealing with 
various aspects of Homeland security were combined. The Department also 
inherited twenty-four (24) legacy advisory committees from the 
Departments of Commerce, Defense, Justice, Transportation, and 
Treasury, the Federal Emergency Management Agency (FEMA), and the 
Office of the President.
    The CMO is responsible for reviewing the mandates and activities of 
the various committees to ensure that they continue to be useful and 
relevant to the Homeland Security mission. In 2003, the then Acting 
Committee Management Officer worked with the staffs of our inherited or 
legacy committees to review the purpose and function of each committee 
and assure there was no duplication of function. We initially 
identified two committees that were performing a very similar function: 
the Immigration and Naturalization Services Airport and Seaport User 
Fees Advisory Committee from the Department of Justice and the U.S. 
Customs Service Consolidated Omnibus Budget Reconciliation Act of 1985 
(COBRA) Fees Advisory Committee from the Department of the Treasury. 
The functions of both committees were assumed by the Airport and 
Seaport User Fees Advisory Committee, and the COBRA Fees committee 
became administratively inactive.\1\
---------------------------------------------------------------------------
    \1\ The COBRA Fees Advisory Committee is an example of a statutory 
committee that requires legislative action to be officially terminated.
---------------------------------------------------------------------------
    Since that time, as a result of the CMO's review, we have 
terminated four additional committees that have completed their mission 
or are no longer relevant. We are currently contemplating further 
contraction of the committee structure and, in particular, we are 
reviewing whether the establishment of FEMA's National Advisory 
Committee (NAC), renders any of the existing FEMA advisory committees 
duplicative. As a result of this review, we may take action to 
terminate one or more additional existing committees and execute their 
advisory functions through the NAC. Where appropriate, we will continue 
to terminate any unnecessary discretionary committees and will work 
with Congress to terminate statutory committees if appropriate.
    As I mentioned earlier, when the Department was established we 
inherited twenty-four (24) committees from other agencies. Since then, 
we have established new committees only as necessary to address new 
initiatives or as directed by Congress, and have terminated those 
committees that have completed their mission or that have missions that 
are no longer relevant. The FACA database currently lists twenty-nine 
(29) advisory committees for DHS; two (2) were terminated this year and 
will be deleted from the database in the next fiscal year. Thus we have 
twenty-seven (27) chartered committees: fifteen (15) statutory, ten 
(10) discretionary, and two (2) presidential. Twelve (12) of our 
committees exist at the Administration's discretion and the remaining 
fifteen (15) are committees created by Congress.
    During Fiscal Year 2006, DHS FACA committees held over 100 formal 
meetings.

IV. Current DHS Advisory Committees
    Under Section 8 of FACA, the CMO is responsible for establishing 
uniform policies, administrative guidelines, and management controls 
for the establishment, supervision, and operation of Departmental 
advisory committees. The CMO develops policies and provides guidance on 
the interpretation and implementation of FACA. Since the Department was 
established, the CMO has coordinated over 50 membership packages and 
over 50 charter actions, and regularly monitors compliance with FACA 
including input into the GSA FACA database, ensuring that diverse 
viewpoints are included in committee membership, and publication of 
federal register notices. Each FACA committee has a Designated Federal 
Officer, or DFO, who is ultimately responsible for compliance with FACA 
and for the day-to-day management of committee activities.
    In the last four (4) years, the CMO has accomplished a great deal. 
In 2003, the then-acting, Committee Management Officer, without any 
staff support, stood up the FACA management program for DHS and 
incorporated 24 existing FACA committees into the Department. Since 
then, we have standardized committee actions throughout the Department 
and improved the timeliness of FACA database reporting. Very recently, 
working with congressional staff, we took actions to standardize 
recommendation reporting in the GSA FACA database. We now have two 
full-time CMO staff and I personally spend a significant amount of my 
time working on CMO-related items. The CMO became part of the Policy 
Directorate in 2006, strengthening the cross-pollination of our 
committees and heightening policy follow-up on committee 
recommendations.
    We have several initiatives designed to further solidify the 
committee management structure at DHS. These initiatives will elevate 
the visibility and accountability of the DFO positions and committee 
management Department-wide. First, we have concluded that we need to 
revise the Department's management directive for FACAs. The new 
directive will clarify the CMO's authority and responsibilities and set 
forth responsibilities of other Department personnel for FACA 
activities, including component heads and Designated Federal Officers. 
The directive will make clear that Component heads are responsible for 
ensuring that their employees comply with the requirements of FACA, 
Committee Management Secretariat regulations, the directive, and other 
guidance issued by the CMO, and that they cooperate with the CMO in the 
management of the FACA program.
    Second, over the last year, we have improved communications to DFOs 
and have plans for further improvement. We have increased the 
information flow on relevant initiatives and policies to DFOs and 
committee members. We have also increased the frequency of our meetings 
with DFOs. We will have a group meeting this fall of all DFOs to 
provide updates on policies and procedures and to solicit input from 
the DFOs. Additionally in the next year, the CMO will develop an 
intranet site that will provide information on FACA and serve as a 
resource for DFOs and all Department personnel. This site will provide 
a one-stop location for information on procedures and provide templates 
for routine documents such as action memoranda, charters, and Federal 
Register notices. The DFO Handbook, which is under development and set 
for completion in the next year, will also be included.
    Third, in the next year, we plan to develop an external one-stop 
web page that will include information on all DHS FACA committees, 
including links to individual committee web pages. This will enhance 
the transparency of the DHS FACA process and provide ready access to 
information about our committee's work.
    Fourth, we recently worked with the Chief Human Capital Officer and 
issued a memorandum that strengthens the accountability of each DFO's 
performance with their supervisors. At DHS, our performance plans lay 
out yearly goals along with quantifiable measures. The employee is 
responsible for drafting the goals and reaching a consensus with her/
his supervisor. This action will help ensure management 
responsibilities are a part of the formal employee appraisal process 
and will increase accountability of committee activities and 
performance.
    We look forward to updating your committee on our progress on these 
initiatives in the coming months.
    In the last year and half since my arrival, we have increased our 
coordination with Congress. I and/or members of my staff have come to 
the Hill three times to provide an overview of DHS advisory committees 
and to discuss the activities of the Homeland Security Advisory 
Council. Last fall we invited staff members of both the majority and 
minority to join a meeting of our Culture Task Force and have increased 
the number of our invitations to Congressional staff for advisory 
committee meetings in general. Members of Congress have participated in 
three (3) meetings of the Homeland Security Advisory Council in the 
last year and half.
    Taken together, these steps have greatly strengthened the 
Department's ability to use and manage its FACAs. As might be expected, 
when DHS was initially formed the managerial styles and structures used 
by the legacy agencies for FACAs varied widely. Since then we have made 
substantial progress in rationalizing these structures and putting in 
place the management processes of a single Department. While, as I have 
outlined, more surely remains to be done, we have succeeded in unifying 
widely disparate structures in a single office and brought order to 
their operation.

V. Homeland Security Advisory Council
    Let me now move from the macro to the micro, looking at committee 
management from my perspective as the DFO for the HSAC. The HSAC 
provides advice and recommendations to the Secretary of the Department 
of Homeland Security on a broad spectrum of matters relating to 
homeland security.
    The members of the HSAC are leaders and experts from the private 
sector, academia, nongovernmental organizations, state and local 
governments, and other appropriate professions and communities. In 
addition, the Chairman of the National Infrastructure Advisory Council, 
the Chairman of the President's National Security Telecommunications 
Advisory Committee, and the Chairman of the Panel on the Science and 
Technology of Combating Terrorism/President's Council of Advisors on 
Science and Technology, serve as ex officio members of the HSAC. The 
Chair of the HSAC is Judge William Webster. All members volunteer their 
time to tackle challenging homeland security issues and their service 
is greatly appreciated.
    There are five subcommittees of the HSAC: the State and Local 
Senior Advisory Committee, the Emergency Response Senior Advisory 
Committee, the Academe and Policy Research Senior Advisory Committee, 
the Private Sector Senior Advisory Committee, and the Rice-Chertoff 
``Secure Borders and Open Doors'' Advisory Committee.
    The HSAC has issued fifteen (15) reports that include 175 formal 
recommendations. One example of the value the HSAC has added is through 
the work of the Intelligence and Information Sharing Working Group, 
which helped define state and local fusion center operations and 
provided foundational principles as the local, state, and federal 
governments have developed fusion centers throughout the country. This 
is a great example of how the work of an advisory committee has helped 
empower our partners and expand our networks to match those of our 
enemies. These fusion center recommendations, like other HSAC 
recommendations, were developed from the ``bottom-up'' by those that 
will have to implement and execute them outside the beltway. One of my 
responsibilities is to ensure that committee members have a forum where 
they can be independent, innovative, non-partisan, and inquisitive so 
they can provide the best possible advice to the Secretary.
    We have strengthened the synchronization between HSAC efforts and 
the needs of the Department. In January of this year, the HSAC 
delivered two reports on topics of the Secretary's choosing--one on the 
Future of Terrorism and another on Improving DHS Culture. In June, HSAC 
staff coordinated written feedback on the Department's response to the 
Future of Terrorism recommendations and, where appropriate, what 
actions had been taken to implement each recommendation. One of the 
primary recommendations was to create an Office of Net Assessment at 
DHS similar to the one at the Department of Defense, and the Secretary 
has tasked the Office of Strategic Plans and the Intelligence and 
Analysis office to develop implementation options.
    Similarly, the report on DHS Culture has gotten high level 
attention. The DHS Chief of Staff and the Chief Human Capital Officer 
have met several times with the co-chairs of the task force and briefed 
HSAC and subcommittee members twice about departmental initiatives in 
response to their report.
    We have made great strides in the past year and a half on providing 
clear feedback on member recommendations. We have recently engaged in a 
project to improve tracking each of the 175 recommendations the HSAC 
has given in its lifetime and to receive written feedback from all 
relevant offices and components responsible for their implementation if 
appropriate. Sometimes, of course, a particular recommendation may not 
be implemented. We may have resource constraints or the Department may 
simply choose a different policy. But we are committed to reviewing and 
responding to each and every recommendation.
    Moving forward, all of our recommendations will be tracked in this 
way, creating a tool useful for feedback to advisory committee members, 
recordkeeping, and historical perspective. We take the responsibility 
of giving feedback to HSAC members very seriously because they are 
volunteers. If the Department chooses not to implement a recommendation 
the members deserve feedback on the rationale behind that decision.
    This fall, we will continue to work with the DFOs of the other DHS 
advisory committees, to institute similar tracking mechanisms for their 
respective recommendations where such mechanisms do not yet exist.

VI. The Value of FACAs
    Thus far we have discussed the processes by which FACAs are 
managed. I would like to turn now to a discussion of the value FACA 
committees add to the Department as we seek to carry out our strategic 
mission. Here are some examples of that value:
    The Aviation Security Advisory Committee, or ASAC, was established 
to provide a key forum for the exchange of views and information on 
civil aviation security issues. Since its inception in 2003, ASAC has 
provided 46 formal recommendations to the Department. One example of 
the ASAC's value was its review of the Transportation Security 
Administration's (TSA) Baggage Screening Investment Study, which helped 
improve Airport Security Access Control Systems, including biometrics.
    The Chemical Transportation Advisory Committee (CTAC) provides 
advice to the Coast Guard's Assistant Commandant for Operations with 
respect to the water transportation of hazardous material in bulk. CTAC 
has made many significant contributions since its creation in the 
1940s. Most recently, CTAC's recommendations on implementing the 
revised International Convention for the Prevention of Pollution from 
Ships (MARPOL) Annex II and the International Code for the Construction 
and Equipment of Ships Carrying Dangerous Chemicals in Bulk (IBC Code), 
has received international recognition for its ingenuity and fiscal 
responsibility. CTAC developed marine emergency responders' 
competencies that will be incorporated into nationally recognized 
National Fire Protection Associated standard.
    Another committee that has received recognition for excellence is 
the Data Privacy and Integrity Advisory Committee (DPIAC). In the past 
year and a half, the Committee has issued five reports to the 
Department. The Department has used the report ``Framework for Privacy 
Analysis of Programs, Technologies, and Applications'' has been 
utilized by the Department to analyze the effects of various programs 
and technologies on privacy, and the New Zealand government has even 
expressed interest in the document's methodology. The report ``Use of 
Commercial Data to Reduce False Positives in Screening Programs'' was 
adopted September 28, 2005. The Secure Flight Program found this report 
particularly helpful in addressing the issue of adverse impacts on the 
public. Indeed, the Privacy Office is integrating portions of the 
report into the soon to be released Privacy Impact Assessment Guidance 
for the Department. This report is frequently used when components 
propose programs incorporating such data.
    Since the National Infrastructure Advisory Council's (NIAC) 
inception in late 2002, the Council has released thirteen (13) reports, 
with two (2) more slated for completion this fall. The Sector 
Partnership Implementation Report and Recommendations helped establish 
an initial governing structure to work with our various private sector 
partners in an organized fashion. The report offered numerous 
recommendations designed to enhance the public-private sector 
partnership as well as to ensure trust and cultivate an effective, 
close working relationship between both spheres. This report laid the 
foundation for the following partnership avenues: Sector Coordinating 
Councils, Government Coordinating Councils, the Partnership for 
Critical Infrastructure Security, and the relatively new Critical 
Infrastructure Partnership Advisory Council. These organizations all 
play integral roles in aiding in the function of and maintaining the 
public-private critical infrastructure partnership.
    The National Maritime Security Advisory Committee (NMSAC) was 
active in developing the Transportation Worker Identification 
Credential (TWIC) Notice of Proposed Rulemaking (NPRM). The Committee 
formed a workgroup to address credentialing and provided input on 
specific questions posed by the Coast Guard and TSA. This work resulted 
in a maritime operating requirements document, as well as technical 
card and reader specifications which meet maritime industry needs, both 
of which may be used during the TWIC pilot tests and subsequent 
implementation nationwide. The Commandant of the Coast Guard recently 
expressed his views regarding the value this committee has added: ``I 
want you to be aware of the excellent intra-department support we 
received. . .the [TWIC] working group preformed in a remarkable manner 
to ensure that the views and participation of industry and labor were 
considered at the front end of the TWIC version II effort as the 
government works toward a meaningful, realistic card reader requirement 
that balances security with commerce. . .NMSAC continues to prove its 
value to the Department through their diligent work and should be 
viewed as a resource to gain valuable insights as we move forward in 
other areas of maritime security.''
    These are just a few examples of how our advisory committees have 
assisted us in improving policy and ultimately carrying out our 
mission.

VII. Concluding Remarks
    Thank you for the opportunity to address the Committee and 
highlight an important avenue of empowering our Homeland security 
partners. Chairman Thompson and Congressman King, I welcome any 
questions you have, and look forward to our future work together.

    Chairman Thompson. Thank you very much.
    We will now hear from Mr. Flaak.

   STATEMENT OF ROBERT FLAAK, DIRECTOR, COMMITTEE MANAGEMENT 
SECRETARIAT OFFICE OF GOVERNMENT-WIDE POLICY, GENERAL SERVICES 
                         ADMINISTRATION

    Mr. Flaak. Chairman Thompson, members of the committee, my 
name is Robert Flaak. I am the director of the GSA's Committee 
Management Secretariat. Thank you for the opportunity to 
discuss with you today the important role played by Federal 
advisory committees in achieving the missions assigned to the 
executive branch.
    While the use of citizen advisors has been called upon 
since the early days of the republic to obtain objective and 
informed advice, it was not until the end of the Second World 
War that advisory committees became institutionalized as a 
unique tool of Federal Government.
    As the influence and number of advisory committees grew, so 
did the concerns within the executive and legislative branches 
over their management, their cost, and their accountability. In 
1962, President Kennedy issued an executive order to begin this 
management process. That was further enhanced in 1964. And in 
1972, Congress passed the Federal Advisory Committee Act, or 
FACA.
    Simply put, the purpose of FACA is to illuminate how 
agencies make decisions based upon advice and recommendations 
from persons outside the government, and while also making sure 
that the costs to support advisory committees are commensurate 
with the benefits that are received.
    In my full testimony, Mr. Chairman, I have provided a 
complete listing of the act's most significant provisions. To 
summarize, the secretariat is responsible for issuing policy 
and to provide a framework for government-wide oversight of 
advisory committees.
    On the other hand, agencies have joint responsibility, from 
implementing the act and for issuing additional guidance and 
guidelines that are needed to address their unique 
requirements.
    At the agency level, committee management officers, or 
CMOs, are responsible for implementing FACA on behalf of the 
agency head. Each committee has a designated Federal officer, 
or DFO, who must work with the CMO to manage the work and the 
operations of that committee. Together, the two are responsible 
for ensuring compliance with FACA, agency-specific requirements 
and procedures, regulations issued by my office, as well as any 
other applicable statutes and regulations.
    Although the act is quite detailed in the specific 
procedures agencies must follow with respect to the 
establishment of advisory committees, the conduct of meetings 
and the availability of records, it does provide substantial 
flexibility to agency heads in other areas, such as membership 
selection, tenure, and procedural issues, such as quorum and 
voting procedures.
    This is appropriate, given the diverse needs of the 
executive branch and the necessity for agencies to quickly 
adopt new operating procedures where conditions warrant.
    While the act does not provide provisions addressing 
committee member conflicts of interest--these are handled by 
the U.S. Office of Government Ethics--the act does include two 
important provisions designed to provide objectivity of 
advisory committee deliberations.
    First, FACA requires that the membership of advisory 
committees be fairly balanced in the points of view represented 
and the functions to be performed by the committee. And second, 
the act requires provisions to assure that advice and 
recommendations will not be inappropriately influenced by the 
appointing authority or by any special interest, but will 
instead be the result of the advisory committee's independent 
judgment.
    Thus, while the act stresses the importance of assuring an 
advisory committee's independent judgment, it also requires, at 
a minimum, the composition of advisory committees reflect the 
expertise and interests that are necessary to accomplish a 
given committee's mission.
    I would like to point out a number of the issues that my 
office works within--the framework to provide compliance and 
oversight to the agencies across the executive branch.
    There are several examples, one of which is we have a desk 
officer program. We have desk officers in my office, my staff, 
who operate independently with their agencies. They work 
closely with the CMOs on advisory committee establishments, 
renewals and terminations; FACA policy interpretation, as 
applied to various aspects that come up within that agency; 
and, of course, the best-practice guidelines that help them do 
their job on a day-to-day basis.
    We also use a Web-based shared management system--some 
people call this our FACA database--which we use to manage and 
compile data required in the completion of the annual 
comprehensive review program required by the Federal Advisory 
Committee Act. We measure agency compliance in a red-green-
yellow mode, much like the government does in many other areas.
    The secretariat has also incorporated performance measures 
for advisory committees in that shared management system. We 
administer an advisory committee engagement survey every other 
year to advisory committee members and staff.
    We also chair the Interagency Committee on Federal Advisory 
Committee Management, which brings all of the committee 
management officers together every quarter to look at important 
issues and compliance act factors and to bring them up to date 
on things that they need to know about.
    And finally, we conduct a training course that is held 
about five to six times a year in the Washington, D.C., area 
for all of the FACA professionals that can attend it. And that 
typically covers 300 to 400 people every year, and it has been 
run since 1989.
    Mr. Chairman, members of the committee, that concludes my 
prepared statement. I would be delighted to answer any 
questions you may have.
    [The statement of Mr. Flaak follows:]

                   Prepared Statement of Robert Flaak

    Mr. Chairman, Members of the Committee, I am pleased to discuss 
with you today the important role played by Federal advisory committees 
in achieving the missions assigned to the Executive Branch.
    More than a quarter-century before the enactment of the Federal 
Advisory Committee Act (FACA) in 1972, the Government began to 
recognize the important role played by advisory committees in 
developing effective policies. While the use of citizen-advisors has 
its roots in the earliest efforts of the Nation's leaders to obtain 
objective and informed advice, it was not until after the end of World 
War II that advisory committees became institutionalized as a unique 
tool of democratic government. For example, it was an advisory 
committee, the Hoover Commission, whose work laid the foundation for 
the creation of the General Services Administration (GSA) in 1949.
    As the influence and number of advisory committees grew, so did 
concerns within the Executive and Legislative Branches regarding their 
management, cost, and accountability. In 1962, President Kennedy issued 
Executive Order 11007 establishing guidelines for using such groups. 
These guidelines were expanded in 1964, with the issuance of the 
original Bureau of the Budget Circular A-63.
    Federal information policy relating to the accessibility of 
government records was revised in 1966, following the enactment of the 
Freedom of Information Act (FOIA). In 1972, similar openness policies 
were applied to the use of advisory committees through the enactment of 
FACA. Later in the 1970's, the two remaining cornerstones of Federal 
access policy, the Privacy Act (1974) and the Government in the 
Sunshine Act (1976) were enacted by the Congress.
    The Congress passed the Federal Advisory Committee Act in 1972 to 
accomplish two important objectives: (1) to establish the means for 
providing Congressional and Executive Branch oversight over the number 
and costs of advisory committees; and (2) to ensure that advisory 
committees operate in plain view of the public. Simply stated, the 
Act's purpose is to illuminate how agencies make decisions based upon 
advice and recommendations from individuals outside of Government, 
while also making sure that the costs to support advisory committees 
are commensurate with the benefits received. Since 1972, the Act's 
coverage has been extended to more than 4,300 advisory committees made 
up of an estimated 950,000 members.
    Today, advisory committees are used by over 60 agencies to address 
issues that reflect the complex mandates undertaken by the Government. 
During fiscal year 2006, over 65,000 committee members served on 1,000 
committees and provided advice and recommendations on such matters as 
the safety of the Nation's blood supply, steps needed to address the 
management of natural resources and the country's national defense 
strategies.

OVERVIEW OF GSA RESPONSIBILITIES
    Several important government-wide roles and responsibilities are 
assigned by the Act to the Administrator of General Services and to the 
Committee Management Secretariat which, taken together with those 
specific functions reserved for the Congress and Executive Branch 
Departments and agencies, are designed to improve the management and 
accountability of advisory committees. Among the statutory 
responsibilities assigned to the Administrator are:
        <bullet> Conducting an annual comprehensive review covering the 
        performance of, and need for, existing advisory committees 
        (section 7(b));
        <bullet> Issuing regulations, guidelines, and management 
        controls of governmentwide applicability (section 7(c));
        <bullet> Providing for adequate notice to the public regarding 
        committee meetings (section 10(a)(2)(3));
        <bullet> Issuing guidelines on committee member compensation in 
        conjunction with the Office of Personnel Management (section 
        7(d));
        <bullet> Providing for follow-up reports on public 
        recommendations of Presidential advisory committees (section 
        (6(b)); and
        <bullet> Assuring that advisory committees are established in 
        accordance with the Act's requirements (section 9).

OVERVIEW OF AGENCY RESPONSIBILITIES
    Responsibilities assigned to agencies that sponsor advisory 
committees subject to FACA include:
        <bullet> Issuing and maintaining uniform administrative 
        guidelines and management controls (section 8(a));
        <bullet> Appointing a Committee Management Officer (CMO) to 
        provide oversight of the agency's entire committee inventory 
        (section 8(b));
        <bullet> Consulting with the Secretariat regarding proposals to 
        establish advisory committees (section 9(a)(2));
        <bullet> Filing Charters with the Congress prior to initiating 
        committee activities (section 9(c));
        <bullet> Maintaining records, minutes, and reports covering 
        closed meetings (section 10(b)(c)(d));
        <bullet> Appointing a Designated Federal Officer (DFO) for each 
        committee (section 10(e));
        <bullet> Maintaining financial records (section 12(a));
        <bullet> Providing support services (section 12(b)); and
        <bullet> Terminating advisory committees as appropriate, 
        consistent with FACA (section 14(a)(1)(A)).

FACA PROCEDURES
    While FACA is generally recognized for its emphasis on justifying 
the number and costs of advisory committees, its provisions governing 
access to committee meetings and records are equally important. FACA's 
goal is to provide the broadest possible contemporaneous access to 
meetings of, and materials generated for or by, Federal advisory 
committees during their deliberations. In particular, Section 10 of the 
Act provides that:
        <bullet> Each meeting of an advisory committee must be open to 
        the public, except for those closed or partially-closed 
        pursuant to specific exemptions contained in the Government in 
        the Sunshine Act (section 10(a)(2));
        <bullet> Timely notice of each meeting must be published in the 
        Federal Register (section 10(a)(2));
        <bullet> Interested persons may appear before, or file 
        statements with, an advisory committee, subject to reasonable 
        operating procedures established by an agency (section 
        10(a)(3));
        <bullet> Documents prepared for or by, or otherwise made 
        available to, an advisory committee must be accessible for 
        public inspection and copying at a single location, subject to 
        exclusions provided under the FOIA (section 10(b)); and
        <bullet> Minutes of each open or partially-open meeting must be 
        kept and made available to the public (section 10(c)).
    Agency CMOs are responsible for implementing FACA on behalf of the 
agency head. Each DFO must work with their respective CMO to implement 
the Act's requirements at the individual committee level. Together, the 
CMO and DFO are responsible for ensuring compliance with FACA, the 
agency's internal operating procedures, regulations issued by GSA, and 
any other applicable statutes or regulations, such as those issued by 
the United States Office of Government Ethics (OGE), the National 
Archives and Records Administration (NARA), or the Office of Personnel 
Management (OPM).

COMMITTEE COMPOSITION AND RELATIONSHIP TO AN AGENCY
    The Act does not include provisions covering individual committee 
member conflicts of interest. The applicability of conflict of interest 
laws and various ethical requirements for members of advisory 
committees who serve as Special Government Employees (SGEs), are 
covered by other laws and regulations issued by the U.S. Office of 
Government Ethics.
    The Act, however, does include two important provisions designed to 
promote the objectivity of advisory committee deliberations. First, 
sections 5(b)(2) and (c) require that ``the membership of the advisory 
committee. . .be fairly balanced in terms of the points of view 
represented and the functions to be performed by the committee.'' 
Second, sections 5(b)(3) and (c) require ``provisions to assure that 
the advice and recommendations will not be inappropriately influenced 
by the appointing authority or by any special interest, but will 
instead be the result of the advisory committee's independent 
judgment.'' Thus, while the Act stresses the importance of assuring an 
advisory committee's independent judgment, it also requires that the 
composition of advisory committees reflect the expertise and interests 
that are necessary to accomplish the committee's mission.
    The Act does not define those factors that should be considered in 
achieving ``balance.'' However, the Secretariat's regulations provide 
that, ``. . .in the selection of members for the advisory committee, 
the agency will consider a cross-section of those directly affected, 
interested, and qualified, as appropriate to the nature and functions 
of the committee. Committees requiring technical expertise should 
include persons with demonstrated professional or personal 
qualifications and experience relevant to the functions and tasks to be 
performed.'' (41 CFR 102-3.60(b)(3)) In their efforts to balance the 
points of view of a committee's membership, agencies focus primarily on 
the subject matter to be addressed by the committee; nevertheless, 
while not required by law, other factors may be appropriate in relation 
to a committee's function, such as geographical representation; racial 
or ethnic diversity; occupational affiliation; or the need to consult 
with State, local, or tribal governments.
    Similarly, FACA does not outline specific steps that must be taken 
to ensure that advice and recommendations offered by an advisory 
committee are free from inappropriate influence by the appointing 
authority or special interests. Accordingly, each agency is responsible 
for developing specific operating procedures, consistent with the Act 
and GSA's regulations to ensure an advisory committee's independence, 
and to promote a balanced committee membership.

FACA'S SYSTEM OF CHECKS AND BALANCES
    Although the Act is quite detailed in the specific procedures 
agencies must follow with respect to the establishment of advisory 
committees, the conduct of meetings, and the availability of records, 
it provides substantial flexibility to agency heads in other areas, 
such as membership selection and tenure. GSA believes this is 
appropriate given the diverse needs of the Executive Branch and the 
necessity for agencies to quickly adopt new operating procedures where 
conditions warrant.
    FACA also includes a variety of procedural safeguards to ensure 
that advice and recommendations tendered by an advisory committee are 
properly obtained by an agency through a public process prior to final 
agency action. In particular, the Act's provisions requiring open 
meetings and summaries of closed or partially-closed meetings, the 
ability of the public to provide written or oral statements to a 
committee, and access to committee minutes and records reinforce the 
Act's goals of maintaining committee independence and freedom from 
inappropriate influence of special interests. These ``checks and 
balances,'' rooted firmly in the principle of government in the 
sunshine, have contributed to the success of advisory committees over 
the past thirty-five years.

COMPLIANCE AND OVERSIGHT
    The Secretariat provides agencies with the tools to ensure 
successful oversight of their federal advisory committee program, using 
a combination of shared management approaches, web-based tools, 
interagency coordination, and the application of best practice 
guidance. Compliance and oversight are managed by the Secretariat 
through the following:
        <bullet> Secretariat Desk Officers coordinate advisory 
        committee establishments, renewals and terminations, FACA 
        policy interpretation, and best practice guidance on a 
        continuous basis with assigned Committee Management Officers 
        (CMO);
        <bullet> The Secretariat uses a web-based Shared Management 
        System to manage and compile data required in the completion of 
        the annual comprehensive review (ACR) of advisory committees 
        required by the Act (section 7(b)). Agency compliance is 
        measured via a publicly-accessible scorecard (red-yellow-
        green);
        <bullet> The Secretariat has incorporated performance measures 
        for advisory committees in the Shared Management System--data 
        are collected from individual advisory committees, with 
        government-wide and agency roll-up;
        <bullet> The Secretariat administers an Advisory Committee 
        Engagement Survey (ACES) every other year which measures the 
        extent to which sponsoring agencies address factors that are 
        critical to the success of advisory committees;
        <bullet> The Secretariat chairs the Interagency Committee on 
        Federal Advisory Committee Management which brings all CMOs 
        together quarterly for discussions on FACA policy, best 
        practices and compliance issues;
        <bullet> The Secretariat conducts a FACA training course which 
        addresses the following topics: FACA history, laws related to 
        FACA, legal and other ethics issues, recordkeeping, committee 
        operations, membership processes, public interactions, and the 
        use of the Secretariat's Shared Management System.
    Mr. Chairman, members of the committee, that concludes my prepared 
statement. I would be pleased to answer any questions you may have.

    Chairman Thompson. Thank you very much.
    I will start the questioning of our panel, to begin with.
    Mr. Hoelscher, of the 29 advisory committees that are 
presently in the department, how many of them are functioning 
as of this date?
    Mr. Hoelscher. Thank you for that question, Mr. Chairman.
    There are currently 27 chartered committees. The FACA 
database requires in the previous fiscal year that you report 
all of the FACA committees that are in existence, even the ones 
that were terminated in the previous fiscal year. So there are 
two examples of committees that we terminated in the last 
fiscal year that still show up in the database that are no 
longer chartered committees.
    So the answer is, there are 27 chartered committees, active 
committees.
    Chairman Thompson. And your testimony before us is that 
they all are functioning committees as of this date, the 27?
    Mr. Hoelscher. The 27, for the most part, they are all very 
active. There are very few examples of nonactivity.
    The one example that I can think of, the Great Lakes 
Pilotage Advisory Committee, did not meet in the last fiscal 
year but just held a meeting yesterday. So they are now active 
and functioning.
    Chairman Thompson. Mr. Flaak, help me out on this 
committee: Are you merely an advisor to governments who have 
advisory committees and provide training to those committees or 
staffs?
    Mr. Flaak. We do, really, quite a bit more than that, Mr. 
Chairman. Our role is to set the policy framework within which 
agencies operate their Federal advisory committees. The 
regulation, under 41 CFR, that implements the Federal Advisory 
Committee Act was written by my office, and we ensure that it 
is implemented equally all of the agencies in the executive 
branch. This is an executive branch rule, so----
    Chairman Thompson. So what happens when an agency is out of 
compliance?
    Mr. Flaak. When an agency is out of compliance--for 
example, they don't charter committees on time, they operate 
committee without the chartering process, or they do other 
things that are not consistent with the act--and we notice it, 
we talk to the committee management officer about that.
    FACA does not have any criminal prosecution requirements in 
it. It does not give us the hammer to tell agencies what to do. 
We work in a collegial environment and a collaborative 
environment with all of the committee management officers that 
we work with.
    Chairman Thompson. So you really can't do anything.
    Mr. Flaak. We work with them on improving their processes. 
We set the standards for it. If they are in violation of the 
regulation, we use the shared management system, which we use 
to collect the data on advisory committees and provide guidance 
and training. Over the years, it has worked quite well.
    Chairman Thompson. Well, let me get a little more specific. 
And I appreciate your comment.
    Is your testimony that DHS's advisory committees, that 27 
that we referred to earlier, they are all in compliance, as of 
this hearing?
    Mr. Flaak. Effectively, I would say they are in compliance.
    There are so many small things that could happen with any 
given advisory committee to take them out of compliance. For 
example, they might not issue their Federal register notices 
for meetings in a timely manner. Those are small issues, but 
sometimes those happen.
    Chairman Thompson. So, I guess my question is, are they in 
compliance, yes or no?
    Mr. Flaak. Yes.
    Chairman Thompson. All right.
    Mr. Hoelscher, let's take the Navigational Safety Advisory 
Council for example. I understand that council has only met 
four times in 20 years. Am I correct?
    Mr. Hoelscher. Mr. Chairman, I don't know the answer off 
the top of my head, but I would be willing to follow up to give 
you that information. I don't think that sounds accurate, but I 
will look into that for you.
    Chairman Thompson. So are councils or advisory committees 
required to meet annually?
    Mr. Hoelscher. That is correct, sir. The FACA requires that 
each committee meets at least once annually. And each charter 
spells out further requirements. Last year, fiscal year 2006, 
DHS held over 106 meetings throughout the fiscal year of all of 
its advisory committees.
    Chairman Thompson. So, Mr. Flaak, if I did to you, ``A 
committee met four times in 20 years,'' would that send a flag 
up to you?
    Mr. Flaak. Generally it does. If the committee does not 
meet frequently--first of all, committees are rechartered every 
2 years. During the rechartering process, we evaluate whether 
or not the committee has been effective and whether it is 
needed or not. That is normally done at the agency level. We 
may opine to them about our views on it, but--
    Chairman Thompson. So if I asked you to check the 
Navigational Safety Advisory Council for whether or not it was 
in compliance, would you get back to the committee?
    Mr. Flaak. Of course.
    Chairman Thompson. Because I am concerned that somebody 
that might not meet but four times in 20 years would be in 
compliance based on the testimony of both of you all. And I am 
concerned.
    Last question: OMB issued a letter requesting Federal 
departments and agencies promote diversity on advisory councils 
and committees. Keeping accurate records on diversity is part 
of that process. But, as I understand, the department does not 
request diversity information.
    Mr. Hoelscher, is that correct?
    Mr. Hoelscher. The department, the main thing that we focus 
on, Mr. Chairman--and thank you for that question--is that we 
bring relevant professional perspective to the policy table, 
which is what FACA requires. At the end of the day, we need to 
bring people who have the relevant expertise to give the 
secretary sound advice.
    Although we don't track the gender or ethnic information or 
information along those lines, we do bring in other diversity 
perspectives as well. We do have a policy that we try to 
maximize ethnic and gender diversity as much as possible, but 
we also look at things like geographic diversity. And we have 
46 states represented in our advisory committee members.
    Chairman Thompson. Do you think racial diversity on 
advisory committees is important?
    Mr. Hoelscher. That is something that we take very 
seriously, and we try to promote it as much as possible. Some 
of our committees ask minority associations for their 
suggestions for committee members. We ask members of Congress 
for suggestions of committee members.
    I think a couple members of this committee provided very 
good suggestions for the National Advisory Council, FEMA's new 
advisory council. And so, we have added some very good 
membership on that newly created committee.
    Chairman Thompson. Mr. Flaak, are you aware of whether or 
not diversity information is collected by other agencies?
    Mr. Flaak. I am aware that some agencies do collect that 
data. I spent 20 years as a DFO with the Environmental 
Protection Agency, and it was a matter of practice to 
incorporate diversity in all of our committees whenever 
possible.
    But the overriding concern on most advisory committees 
under FACA is to ensure that you have the right breadth of 
expertise that serves the needs of the committee and its 
mission.
    Secondary issues, such as diversity for gender, ethnic 
backgrounds, geographical diversity and other factors like 
that, are of secondary issue. They are not directly addressed--
--
    Chairman Thompson. Why would you say they are secondary?
    Mr. Flaak. They are not addressed by FACA. And my role in 
dealing with Federal advisory committees is to ensure that they 
meet the requirements under the Federal Advisory Committee Act. 
It is silent on this issue.
    Chairman Thompson. Well, if you were told that many of 
those advisory committees you have just alluded that were in 
compliance lacked diversity, what would your comment to that 
be?
    Mr. Flaak. Under FACA, it is not a requirement. It is a 
best practice. So we encourage committees to be properly 
balanced with regard to the expertise, and we suggest that 
agencies do their best to incorporate other factors as well.
    But that is usually part of the agency's specific 
procedural requirements that we do not set the standards for.
    Chairman Thompson. Well, I am out of time.
    Ms. Sanchez?
    Ms. Sanchez. Thank you, Mr. Chairman.
    And I actually want to follow up, because I think this is a 
very important issue. And I don't know how we get to the crux 
of what I believe the chairman is talking about, but I know 
that he and I have discussed this and it is an important issue 
to us.
    You see, homeland is a pretty interesting arena to be 
working in, you know. And I don't want to offend anybody, but 
it tends to be that there are a lot of anglo males in law 
enforcement, in the intelligence industry, et cetera. And so, 
when we look at the department and when we look at this real 
basic criteria of who is qualified or who has the special 
assets or the special skills to be in these jobs, we tend to 
see the same profile of person come through.
    And we are concerned, in particular, not just because the 
United States is a diverse area and we want to see 
representation in the department and, by the way, in these 
types of committees, but because we need that diversification 
in order for us to have the language skills, the nuances when 
foreigners, let's say, who we tend to think are the ones who 
are coming to get us, if you will, that we need that special 
set of skills too.
    So when we don't see it, we get concerned. And we certainly 
don't see it in the regular workforce of Homeland or the 
intelligence community. This is not the first time this has 
been brought up. I mean, Nancy Pelosi said to me several years 
ago when she was on the Intelligence Committee, ``We have told 
them for 15 years to get something more reflective of what is 
going on in the real world.'' So we are concerned.
    I am also concerned from the standpoint of these advisory 
committees where some may not think it is very important, but 
when we diversify those committees, we are also able to give 
them their resume-building, so when we are looking in the 
future for new political appointees or people to head up these 
areas, they will have some of that background that we so 
seriously lack, quite frankly, as a woman or as a Hispanic or 
as an African-American. There are a lot of people who tend not 
to look in that area.
    So I think it is incredibly important. And I would like to 
see, actually, an accounting, Mr. Chairman, of these committees 
to see what type of diversity actually sits on these advisory 
committees for homeland security.
    Chairman Thompson. If the gentlelady will yield?
    Mr. Hoelscher, will you provide this committee with the 
racial diversity of those 27 advisory committees?
    Mr. Hoelscher. Thank you for the question. I will follow 
up, and, if appropriate, given privacy concerns, we will 
provide that information.
    Ms. Sanchez. And, Mr. Chairman----
    Chairman Thompson. What privacy concerns?
    Mr. Hoelscher. There may be some privacy issues. Some 
people do not like to report that information. I mean, 
currently we don't have a way to track that within the 
Department of Homeland Security.
    Chairman Thompson. You mean to tell me--well----
    Ms. Sanchez. We will work on it.
    Chairman Thompson. That is right. You just get us what you 
can.
    Mr. Hoelscher. Yes, sir.
    Ms. Sanchez. I would like to see it by gender too, if you 
will, Mr. Chairman.
    Chairman Thompson. Can you do gender?
    Mr. Hoelscher. We will follow up on that, sir.
    Ms. Sanchez. OK.
    So I am assuming that there are people within the 
organization that are actually employees of the department, 
designated Federal officers who actually are sort of in charge 
of this advisory committee or whathaveyou. Now, depending on 
the size of the committee, this can be a real challenge to 
continue that committee, to make it meet, to hit the annual 
reporting, even just to get the membership of the committee.
    Given that it is only a part of somebody's job, how much 
time do you think an individual is spending if they are sort of 
in charge of one of these committees?
    Maybe Mr. Hoelscher?
    Mr. Hoelscher. All right. Thank you, ma'am.
    It varies from the committee to committee. For example, 
some of the very regional committees may have only a very small 
fraction of their time being focused on committee work. And 
some committees may have a couple staffers or more working on 
the committee. So it really varies by the scope of the 
committee.
    The good thing about the FACA database is that it 
accurately reports that information on how much staff time is 
going into each committee.
    Ms. Sanchez. And how much training do these people, these 
DFOs who are in charge of these committees, how much training 
do they get to understand where they are going to get people, 
diversification of those resumes, et cetera, following the 
rules? Do we have a training program for them?
    Mr. Hoelscher. That is a good question, and it is very 
important so folks can actually do their job.
    The first thing that happens is we connect new DFOs with 
the GSA program--and I would yield to Bob to talk a little bit 
more about their training efforts--to make sure that they have 
that opportunity to get trained from the GSA best-practices 
perspective.
    Our committee management office also sits down with each 
new DFO to go over things that they need to be keeping an eye 
on, to go over best practices, to go over key documents that 
are relevant to their work. And so, those two things.
    And then, in the last year and a half since I came into 
this job, we have really increased the amount of communication 
that we have with our DFOs. We now talk regularly with them via 
conference calls to share best practices and concerns so we can 
better serve them and support them in their activities. And, 
like I mentioned in my testimony, we will be holding a best-
practices in-person meeting this fall.
    Ms. Sanchez. I would like to hear from Mr. Flaak, but let 
me sort of get something clarified.
    Would a DFO have other responsibilities, or are they just 
geared to making sure whatever committee or committees they are 
in charge of keep going?
    Mr. Hoelscher. The answer is, it depends on the committee.
    For example, the National Infrastructure Advisory Council, 
one of our presidential committees, the designated Federal 
officer there is an assistant secretary. It is the secretary 
Bob Stephan. So obviously he has a lot of other 
responsibilities in addition to those responsibilities. But he 
has staff who work for him who focus on the committee as well.
    Some of the more focused regional committees, like the 
Houston/Galveston Navigation Safety Advisory Committee, they 
are more focused and only have a fraction of the staff time, 
and they focus on other activities, just because the need isn't 
there for a full-time staff person.
    Ms. Sanchez. Mr. Flaak, you were going to comment on the 
training?
    Mr. Flaak. Yes. Thank you, Congresswoman.
    I mentioned earlier we do have a training program. It has 
been in existence since 1989. We teach continuously every year, 
five to six times in the Washington, D.C., area, and tailored 
courses are given to agencies at their request in the field, 
such as CDC or Fish and Wildlife Service and others out west.
    The purpose of that course is to train up individuals who 
are FACA professionals on the duties of the job. And it 
includes people who are DFOs, people who are committee 
management officers, attorneys, FACA administrative support 
staff and others that deal with records and such.
    Typically, 50 to 60 people attend each class. The classes 
are taught by subject-matter experts from agencies, including 
EPA, DOI, DOJ, Office of Government Ethics, DOD and others, who 
come in and provide their expertise on how to run advisory 
committees, the various aspects of it. I have been an 
instructor with a class since 1989 or 1990, and I have taught 
over 6,000 Federal employees how to run advisory committees.
    So it is a very effective program, but it is the only real, 
formal program that DFOs can take to learn how to do that kind 
of work. And some agencies, such as DHS and others, are 
developing some form of training, whether it is through direct 
confrontations with the committee management officer to give 
them the information they need--and there are a few agencies 
that are actually doing a small, formal training program.
    I do have an interagency committee that I set up in 2006 
that is looking at that right now. And as we get more 
information on that, if you would like, I would be happy to 
share that with you.
    Ms. Sanchez. Great.
    Thank you, Mr. Chairman. I appreciate the time.
    Chairman Thompson. Thank you very much.
    We now yield to the gentlelady from the Virgin Islands, 
Mrs. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman.
    I may have missed it, but how many of the committees and 
councils have been eliminated?
    Mr. Hoelscher. When the department first stood up, we made 
one committee administratively inactive. It is a statutory 
committee, so it would take congressional action to get rid of 
it. And since the department has stood up, we have gotten rid 
of four of our FACA committees.
    Mrs. Christensen. And so, you have determined that there is 
no overlap and that the others are still needed, I assume. 
Although they came from so many different agencies, and some of 
the agencies are now working together on different issues, you 
don't see the need to eliminate any more?
    Mr. Hoelscher. You know, that is a good question. It is 
something that we take very seriously, not only in our 
conversations about having new committees started, but the 
example of the COBRA Fees Advisory Committee is an example of a 
committee that was established, came into the department; there 
was another committee that was serving a very similar role. We 
consolidated the activities of those committees into one.
    Those both happened to be statutory committees, so to 
technically get rid of the committee, it would take 
congressional action.
    But we do take that very seriously.
    Mrs. Christensen. OK.
    And the committee, in reviewing the Federal advisory 
committees, the DHS found that they don't really have a 
standard operating procedure or uniform criteria for Federal 
advisory committees to report information.
    Are there plans for an updated management directive to 
establish policies, assign responsibilities, prescribe 
procedures?
    Mr. Hoelscher. Thank you for the question. It provides an 
opportunity to highlight some things we have done recently and 
some things we have planned in the future.
    We have standardized a lot of key documents that have 
helped increase the efficiency of our committee actions, 
including standardizing charter actions, making sure that we 
have clarified reps and new members or special government 
employees and making that clear in each membership package, 
clarified and standardized membership packages, when they go up 
from the component head to the secretary.
    We have some things that will really help cement a 
foundation for the long term: things like the Revised 
Management Directive, which will clarify roles and 
responsibilities of not only designated Federal officers but 
the committee management office, those of GSA, but also those 
of the principals within the department, the individuals that 
the committees report to. For example, the Homeland Security 
Advisory Council reports to Secretary Chertoff.
    So that is one example of something we had planned. But we 
also are planning an Internet site, where we have all the key 
documents located, where they are easily accessible by the 
designated Federal officers to be a really easy tool for them 
to do their jobs.
    I really view my role as to help the designated Federal 
officers do their jobs and to support them and make it easier 
for them to move things forward.
    Mrs. Christensen. Does GSA have a role in that?
    Mr. Hoelscher. GSA does have a role in improving things, 
and I would yield to Mr. Flaak on that.
    Mr. Flaak. We have a role in providing that oversight. But 
the development of individual policies and procedures by 
agencies is done at the agency level.
    We are aware that DHS has prepared a draft and are moving 
toward completion of a document. We have looked at it; it looks 
quite good, actually.
    Not all of the agencies have a proactive approach to doing 
this, and it is a slow process to get them to do it.
    Mrs. Christensen. Thank you.
    Mr. Chairman, I also share the concerns that you and 
Congresswoman Sanchez raised about diversity, especially since 
we don't see much diversity in the department. It is really 
critical that that change, but also that the committees reflect 
the diversity of our country in all of its different ways.
    So thank you. I have no further questions.
    Chairman Thompson. Thank you very much, Dr. Christensen. 
And I assure you, we will look forward to the receipt of the 
information.
    One last question, Mr. Hoelscher. I am told by staff that 
when they met with your staff in May, they were told that only 
recently had you started to track, record, review and implement 
advisory committee recommendations. Is that statement true?
    Mr. Hoelscher. It is partially true. We take the 
recommendations very seriously, and each designated Federal 
officer is responsible for tracking the recommendations and 
following up on their implementation. And if you look overall, 
the majority of recommendations within the department, I think 
it is safe to say, are implemented.
    For example, the Homeland Security Advisory Committee, we 
have had 175 recommendations to the department since the 
committee was established. One-hundred-and-thirty-five of those 
are applicable to the department, so there are 40 that are 
applicable to our partners or other parts of the government. Of 
those 135, 56 percent have been implemented or are in the 
process of being implemented; 34 percent have been partially 
implemented; and only 10 percent have not been implemented. So 
I think that is a good example showing how things have been 
implemented.
    Would you be willing to repeat the other part of your 
question, sir?
    Chairman Thompson. Well, all you would need to do is just 
give me the same statistics for the other 26, and I will be 
perfectly happy just to see that.
    Mr. Hoelscher. OK. I don't have those off the top of my 
head, sir, but we will follow up with that information.
    Chairman Thompson. Thank you very much.
    Mr. Davis, would you want to ask some questions?
    Mr. Davis of Tennessee. Please.
    Chairman Thompson. Mr. Davis of Tennessee for 5 minutes.
    Mr. Davis of Tennessee. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being with us today.
    We will start with Mr. Hoelscher.
    Could you explain to me the extent that the different 
responsibilities are for the various Dos, and how the 
responsibilities vary amongst the committees?
    Mr. Hoelscher. You know, that is a good question. From a E 
HUNFACA-compliance perspective, things are very constant, and 
each designated Federal officer needs to complete all the 
requirements of FACA. From a policy perspective, there is great 
variance. And therefore, that is where there is divergence in 
responsibilities.
    From a policy perspective, if you look at our list of 
advisory committees, you will see a very diverse group of 
bodies that focuses on things from navigation in specific ports 
to very broad policy issues that are tackled by the Homeland 
Security Advisory Council.
    And that is one reason why I think it is very important to 
keep the accountability at the designated Federal officer 
level, because they know their committee members best, they 
know the policy issues and intricacies best, and they can best 
track and provide input in a way that the committee members are 
looking for on their recommendations.
    Mr. Davis of Tennessee. Could you tell me what training is 
provided to DFOs to ensure that they fully understand and meet 
their responsibilities in staffing the advisory committees?
    Mr. Hoelscher. That is a good question, and I appreciate 
the opportunity to discuss that.
    There are several layers that are involved in our training 
efforts. First of all, GSA has a very good program for new 
designated Federal officers. And we make sure that our new 
designated Federal officers are aware of that training and get 
looped in there.
    second, our committee management office sits down with our 
new designated Federal officers when they come on to the job to 
go over what are their key responsibilities, clarify key 
processes, go over key documents, and share some best practices 
as well, so they can really hit the ground running from day 
one.
    And we have also increased communication with our advisory 
committee members, as well, and with our DFOs--ore regular 
meetings. And that allows us to share best practices more 
regularly.
    Mr. Davis of Tennessee. Is that training and communication 
then reflected in their performance appraisals? And, if so, 
how?
    Mr. Hoelscher. The training itself, I don't think it is in 
the performance appraisal, sir. But we took action recently to 
clarify the responsibilities of the designated Federal officer, 
the core responsibilities. As you are well aware, we can't fit 
everything into the appraisal plan, but we do make sure that we 
have the core responsibilities.
    And we recently worked with our personnel shop to make sure 
that it was clarified with DFOs and their supervisors that they 
really need to be capturing--and I think, for the most part, 
that this was happening before, but we wanted to take the extra 
effort to make sure that they were capturing the core 
responsibilities of DFO activities in their appraisal plans and 
encouraged them to take concrete steps to move forward there.
    Mr. Davis of Tennessee. Do you believe that the supervisors 
of DFOs have sufficient knowledge and understanding of the 
DFOs' roles?
    Mr. Hoelscher. That is a good question.
    I think a couple things will or have helped. One is the 
recent action we took, in the form of a memo, to clarify the 
DFO roles. That was distributed to the DFOs' supervisors. And I 
think the management directive that we are working on revising 
will really help clarify those roles and the key processes 
within the department and help elevate the prominence of the 
advisory committees by holding accountable the principles to 
which the committees report as well.
    For example, in the National Security Telecommunications 
Advisory Committee, another one of our presidential committees, 
that committee reports to the undersecretary for the National 
Programs and Plans Directorate. So it clarifies those sort of 
relationships as well.
    Mr. Davis of Tennessee. So you are taking some action to 
strengthen the actual management structure?
    Mr. Hoelscher. Definitely. Definitely.
    Mr. Davis of Tennessee. OK.
    Mr. Flaak, if I could just ask you a question. My time is 
limited. The secretariat conducts a FACA training course. Could 
you explain that course a little bit for me?
    Mr. Flaak. Yes, Congressman. The course is offered, as I 
have mentioned before, a couple of times a year, about five 
times a year. It is a very intense course that covers 2 days.
    And it covers legal aspects of FACA, some historical 
aspects. We cover ethics for Federal employees and for advisory 
committee members, particularly special government employees on 
advisory committees. We cover Federal record-keeping. We cover 
operations of advisory committees. We cover the chartering 
function to charter these advisory committees, and a variety of 
other issues that are relevant for DFOs and other related FACA 
professionals to know and understand.
    Most of the people who take the course have indicated it is 
one of the best Federal training courses they have ever taken. 
And this is pretty consistent in our evaluation reports.
    You would think that, after doing this for about 18 years, 
that we would run out of students, but we practically beat them 
off with a stick every time we have a class. We have a class 
coming up in a couple weeks, and it is almost full already, and 
that is unusual for the summertime.
    Mr. Davis of Tennessee. Thank you for your candidness.
    And I yield back.
    Chairman Thompson. Thank you very much.
    We will now hear from the gentleman from North Carolina for 
5 minutes.
    Mr. Etheridge. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    And, gentlemen, let me thank you for being here this 
morning.
    My notes indicate that the department--you know, we can get 
advisory committees by the president appointing them by 
executive order; the Congress creating more; in some cases, 
department heads through independent advice. And I think you 
have already indicated that in the Department of Homeland 
Security, there are roughly 29 Federal advisory committees, 19 
subcommittees, for a total of about 33-plus efforts, to the 
tune of about $8.5 million in the 2007 fiscal year.
    I was reading in Ms. Weismann's testimony--it will come 
later--indicating that the Federal advisory committees are 
often established to rubberstamp predetermined decisions and 
that departments oftentimes pay much less attention to these 
recommendations that truly originated from the committees 
themselves within the agencies.
    So my question to you is, do you think this is a fair 
characterization? Number two, what do you think is the balance 
in information from the advisory committees between the 
original recommendations and reviewing the decisions that have 
already been made within the department from the information 
they have?
    Do you understand the question?
    Mr. Hoelscher. I will take a cut at it, sir, from the DHS 
perspective, and I am sure Bob could add from the government 
overall.
    I think this is a good example of where the criticisms can 
cut two ways on advisory committees. I don't think the 
characterization that the committees are a rubberstamp is 
accurate at all. And the fact that the department chooses not 
to implement certain recommendations demonstrates that fact.
    Also I think it is important--and Bob can talk a little bit 
more about it--but these are government entities, and it is 
important that the departments and agencies set the agenda, 
they ask the specific questions of what the committees are 
going to focus on, but the committees then need to have the 
latitude to come up with independent and inquisitive advice. 
And I think that, in every case in the Department of Homeland 
Security, that has been the case. On the Homeland Security 
Advisory Council, they have tackled very tough issues and put 
forward very good recommendations and have given sound advice 
to the secretary.
    Mr. Etheridge. Wouldn't that depend on the people you put 
on those committees, whether or not they have expertise in the 
area in which you operate?
    Mr. Hoelscher. That would be one of the foundations. And I 
think that is the main thing, not the only thing, but the main 
thing that we focus on when we are staffing these committees 
is: Are we getting people who bring the relevant professional 
perspectives and the relevant expertise to the table so that 
the leadership gets good advice?
    Mr. Flaak. I would agree that--and when you look across the 
government, one of the keystones of having a good advisory 
committee is excellence in the membership and ensuring that you 
have the right viewpoints, the appropriate expertise to provide 
the information that the agency is requesting, and the 
appropriate diversity on the committee to ensure that all 
viewpoints are being represented.
    Particularly, as you get into some areas of the country, it 
is important to have much more diversity than others, because 
the needs of some of the committees--I know at EPA we had a lot 
of committees dealing with environmental justice, and those 
committees looked at the disproportionate impact of 
environmental issues in the inner-city areas. And those 
committees, very appropriately, were staffed in different ways, 
sometimes, than some of the other committees were.
    One of the difficulties I always ran into as a designated 
Federal officer in setting up advisory committees and helping 
to recruit the people for them was finding the best people who 
were available at the time we needed them. And it is not an 
easy task, if you are a DFO, to do that.
    The thing to remember about advisory committees is that 
they are a creature of the agency. They are the agency's issue, 
and the people who serve on them serve that agency.
    Mr. Etheridge. In that regard, then, let me ask this 
question, because Congress approved, with Homeland Security's 
recommendations, a whole lot of work as it relates to 
passports. So my question is this: I guess I would want to 
know, in what way do advisory committees enhance homeland 
security?
    It seems to me, if you have got all this stuff with 
passports, that we have had a huge debacle between agencies. If 
you had had someone out there that you are listening to that 
understood the problem, instead of people behind a desk who 
didn't understand it, we wouldn't have the huge debacle we have 
got.
    And I would appreciate your comments on that.
    Mr. Hoelscher. I will take a cut at it from the DHS 
perspective.
    I think there are a lot of examples, sir, of advisory 
committees adding value to the department.
    For example, the Homeland Security Advisory Council, we 
have a subcommittee that focuses on secure borders and open 
trade, hitting some of your concerns, focusing on: How can we 
maintain security but also enhance the effectiveness of our 
security programs to increase the welcoming nature of our 
government when folks come to visit for tourism or for business 
or for academic reasons?
    And so, we created a subcommittee of the Homeland Security 
Advisory Committee just to focus on that. We have relevant 
individuals from across the government, from across the private 
sector, in academic, and health-care partners who are 
volunteering their time to give us advice. And I think 
recommendations will come later this year.
    The committee is being chaired by Dr. Jared Cohon from 
Carnegie Mellon and Mr. John Chen from Sybase.
    Mr. Etheridge. I appreciate the answer, but I don't think 
it was to the question I asked.
    Mr. Hoelscher. Would you be willing to clarify, sir, and I 
can maybe follow up?
    Mr. Etheridge. Yes, because I asked the question as related 
to passports, which dealt, by and large, with American citizens 
who want to travel. And it inundated every congressional office 
on the Hill and required the administration, as well as 
Congress, to extend the deadlines.
    Mr. Hoelscher. I don't know if the Department of State has 
an advisory committee on passports, but maybe something that--
--
    Mr. Etheridge. Well, but it is bigger than that, because it 
is a joint deal between Homeland Security, who has the 
enforcement arm--and apparently the enforcement arm wasn't 
talking to the authorizing arm. Which means the right hand was 
going this way and the left was going this way, and they never 
got together to get it fixed.
    Mr. Hoelscher. It is definitely an example of where things 
can be improved. And, again, I don't know, sir----
    Mr. Etheridge. We do have telephones up on this Hill.
    [Laughter.]
    I believe we still operate telephones and fax machines.
    [Laughter.]
    Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you very much.
    And I yield to the gentleman from Washington, Mr. Reichert, 
for 5 minutes.
    Mr. Reichert. Thank you, Mr. Chairman.
    Mr. Hoelscher, you don't have line authority over 
designated Federal officials in the DHS component agencies. 
Would that make your job easier, if you did have line 
authority?
    Mr. Hoelscher. Thank you, Congressman, for the question.
    You know, I don't think so. And for the following reasons, 
I don't think that is the right way to go.
    First of all, it would ultimately lower the level of the 
designated Federal officers. For example, we currently have 
some assistant secretaries and undersecretaries who are 
designated Federal officers for a couple of our committees.
    second, I think it is important to hold people accountable, 
and I think it is important that as much of that is kept at the 
lowest level possible--in this case, the designated Federal 
officer--who knows the committees the best, their members the 
best. They know the policy intricacies the best, as well. And 
so, I don't think that would help improve the management of the 
committees.
    Mr. Reichert. Mr. Flaak, do you have an opinion on that?
    Mr. Flaak. I would agree.
    It is difficult for a DFO to be reporting to multiple 
masters sometimes, too. In many cases, the DFO in an agency is 
doing this as a collateral duty. They have some real job they 
do in that agency, and being DFO for a committee just happens 
to be an extra duty they get assigned. And I see a lot of that. 
There are agencies who have full-time DFOs, and I can tell you, 
it is a full-time job, to do it well.
    But for the committee management office in the agency to 
have line authority over those DFOs means having line authority 
over people that are spread across the entire agency, sometimes 
in the regional and field offices. I don't think it is an 
effective way to manage this.
    I do think it is more effective, though, to have 
performance measures in those DFOs' job descriptions, because 
it helps the agency manage this better. And I can tell you that 
it is useful to have a 360-degree evaluation for individuals to 
look at. And Doug and I have had this conversation before, 
before this hearing even came up, about that sort of issue and 
in looking at the work of individuals who we all work with.
    Mr. Reichert. Do performance measures and evaluations 
currently exist in the system?
    Mr. Flaak. To my knowledge, if they do, they are pretty 
limited. It is not an area that we track. Although we are 
interested in seeing that they get developed across the 
government.
    Mr. Reichert. So there is work now being done on at least 
examining----
    Mr. Flaak. It is on our list of issues to deal with over 
the next several years. The problem is, I have a staff of six 
people, so it is a little bit hard to do all of this at once.
    Mr. Reichert. So that would be my next question for both of 
you.
    Mr. Flaak. Good lead-in.
    [Laughter.]
    Mr. Reichert. Yes.
    Mr. Hoelscher, in your statement, you say that you have two 
full-time people. Is that enough for you?
    And then, Mr. Flaak, you have already said that you don't 
have enough staff. How many would be enough? How many people do 
you need to do your job?
    Mr. Hoelscher. You know, sir, given the requirements of 
FACA, I think our staffing level right now is at the 
appropriate level. And I think it is very much in line with 
where it is at in other departments throughout the Federal 
Government for departments that have a similar number of FACA 
committees.
    Mr. Flaak. I think at the different agencies, the grade 
level for committee management officers ranges across the map 
from around a GS-12 up to SES. And there is really no real 
correlation to the number of committees or the size of the 
agency. It is just historically how that agency had it set up, 
and it has kind of worked that way. Committee numbers change 
over time.
    For my staff, we do an effective job of providing 
oversight. I probably could use one or two more people to do 
some of these initiatives.
    Mr. Reichert. Mr. Hoelscher, you wouldn't turn down an 
extra employee, would you?
    [Laughter.]
    Mr. Hoelscher. Probably not, sir.
    [Laughter.]
    Mr. Reichert. I yield back. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    We will now hear from the gentleman from Texas, Mr. 
Cuellar, for 5 minutes.
    Mr. Cuellar. Thank you, Mr. Chairman.
    And, again, thank you for being here.
    Just to follow up on some of the questions that have been 
asked, I think it is, as you know, very important that the set-
up of the structure of the advisory committee and how it is 
integrated, like you said, making sure we have the right 
expertise and all that, is important.
    My question is a follow-up. My understanding is that each 
of the advisory committees is housed within the component 
agency and reports to the head of that agency. Is that correct?
    Mr. Hoelscher. Within DHS.
    Mr. Cuellar. Yes, right.
    Mr. Hoelscher. Yes, it varies within--it reports to the 
appropriate person within the component, within that policy 
area.
    Mr. Cuellar. And, as you know, we have added different 
agencies under Homeland Security. By having that type of 
arrangement, how does that help you all with transformation and 
integration efforts, that Homeland is trying to do that? I 
mean, is that a system that works?
    Mr. Hoelscher. That is a good question. And one of the main 
reasons, or an important reason, that DHS stood up, as you well 
know, is to better leverage all the Federal resources to better 
secure the homeland.
    I think one example of an area where we minimized 
duplication of our committees: When the department first stood 
up, we identified two committees that were duplicative or very 
close in their mission, and we made one administratively 
inactive. And that takes congressional action to get rid of the 
committee, technically. And that is one area where I would 
encourage the Congress to look at, to get rid of the COBRA Fees 
Advisory Committee, because we have another committee that is 
doing the functions of that committee.
    I think, similarly along those lines, whenever there is 
talk of a new advisory committee being stood up, we really take 
a step back and say, ``Is this necessary? Are there other 
avenues that we can take to get similar advice that is going to 
be at a lower cost?'' And only when those answers are answered 
in a way where it is necessary do we actually take action to 
establish them.
    Mr. Cuellar. OK.
    Could I ask both of you all, if you could provide this to 
the chairman, if you can give us what we need to streamline--I 
know you have got to go through your own process before you 
give us this info. But one is streamline; what advisory 
committees you feel might not be necessary at this time.
    And then if there is a way that we can structure this. 
Because, I mean, you should have the advisory committees, but 
if they are all within the same agency, I mean, is that the 
best format, is that the best structure to have, to help you 
get new ideas and new blood into the ideas to continue the 
integration and the transformation of homeland security?
    So I would appreciate the same thing with GSA, if you all 
could give us any suggestions, we would appreciate that, if you 
could submit that to the chairman.
    Thank you.
    Thank you, Mr. Chairman. I yield back the remaining balance 
of my time.
    Chairman Thompson. Thank you very much.
    That concludes the questions of the committee----
    Mr. Shays. Could I just ask one question?
    Chairman Thompson. Yes.
    Mr. Shays. As I am sitting here, I am just trying to grasp 
the significance of having people's names be known on advisory 
committees. And in one sense, I could understand that we would 
not want to make such a big deal that these individuals then 
become a conduit for others who then seek them out and act as 
if they could then become the lobbyist for their position. But 
on the other hand, I sense the need of people's right to know 
and to make sure, as the committee was concerned, that these 
individuals not have their own agenda in a way that would 
pervert the mission of the Department of Homeland Security.
    And this has been addressed, in a way, but I would like you 
just to kind of articulate it again how you sort that out.
    Mr. Flaak. Right now, membership on Federal advisory 
committees stands at about 65,000 across the government. Those 
members, of course, change year to year. Some of them are 
special government employees, and they are subject to the same 
ethics rules and requirements that I am as a Federal employee. 
So when they serve on committees, they have to follow ethics 
rules and requirements.
    Naming the individuals is not an unusual thing. It is 
included in our shared management system. It is available to 
the public and anyone who wishes to see the names of people who 
serve on the different committees. If you were to attend an 
advisory committee meeting, you would find the roster of that 
committee there anyway. So that information is going to be 
public.
    What stops people from lobbying committee members? Frankly, 
not a whole lot. You can advise committee members and train 
them a bit. We used to do that, to advise them that, ``Look, 
you don't talk to people about these things. And if someone 
persists, you tell your DFO, and the DFO will deal with it in 
some manner.''
    So it is not a perfect world, but it tends to work pretty 
well. And with good training and collaboration, we achieve 
pretty good compliance.
    Mr. Hoelscher. And, sir, if I could add to that from the 
DHS perspective, I think there are two things that we do.
    First of all is to make sure we have broad perspectives and 
there are broad professional perspectives on each committee. 
That is the first step, so there are counterbalancing views and 
different perspectives that come to the table.
    And I think there is also, most of our committees don't get 
in the territory of particular matters. And so, on the Homeland 
Security Advisory Council, we don't get into issues of 
contracts or very particular matters. And so, that helps us 
steer clear of those things.
    Mr. Shays. Let me just respond to that. I think it does to 
a degree, but if an advisory committee is recommending you head 
in a certain direction where only certain vendors ultimately 
can be players, they can do it in an indirect way. Correct?
    Mr. Hoelscher. I am not aware of any examples of that 
happening from the advisory committees that I oversee. But I 
suppose, in a hypothetical, it could be possible, sir.
    Mr. Shays. OK. Thank you.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    Let me thank our first panel of witnesses for their 
testimony, as well as their answers to the questions. I will 
remind you that there is some follow-up information that the 
committee will need. Thank you very much for your testimony 
before the committee this morning.
    Mr. Flaak. My pleasure, Mr. Chairman. Thank you.
    Mr. Hoelscher. Thank you.
    Chairman Thompson. We would like to call our second panel 
of witnesses, please.
    Let me welcome our second panel of witnesses to this 
hearing this morning.
    I will introduce them as they are seated: Mr. Jeff Gaynor, 
former director of DHS Homeland Security Advisory Council, 
Emergency Response Senior Advisory Committee and Critical 
Infrastructure Task Force; Mr. Randy Beardsworth, who is a 
former DHS assistant secretary for strategic plans; Ms. Anne 
Weismann, chief counsel, Citizens for Responsibility and Ethics 
in Government; Mr. Alfred Berkeley, member of the DHS National 
Infrastructure Advisory Committee.
    We would like to welcome all of you to the hearing this 
morning.
    As you know, the procedure here is that we have received 
your written testimony, and we would ask you to summarize your 
written testimony in 5 minutes for the committee, beginning 
with Mr. Gaynor.

 STATEMENT OF JEFF GAYNOR, FORMER DIRECTOR, EMERGENCY RESPONSE 
     ADVISORY COMMITTEE, CRITICAL INFRASTRUCTURE TASK FORCE

    Mr. Gaynor. Thank you, Mr. Chairman, distinguished members 
of the committee. I am proud to be before you today to urge 
full empowerment of the Homeland Security Advisory Council.
    At the secretary's direction, the HSAC has provided 
visionary, bold and actionable recommendations. Because of time 
limitations today, I would like to focus on the principal 
recommendations in just two of the HSAC's reports to justify my 
recommendation to you.
    The first recommendation I wish to discuss is in the 
Private-Sector Information-Sharing Task Force report. It is the 
principal recommendation.
    Because the number of Homeland Security information reports 
produced is not a valid metric of their value in securing the 
homeland and because we are in this fight with terrorism as a 
nation, the principal recommendation of the task force was the 
creation of a formal, private-sector homeland security 
information requirements process--quite simply, the ability for 
a high-consequence, private-sector entity or corporation to ask 
a homeland security-related question and get an answer.
    Despite the HSAC recommendation and nearly 2 years of 
information-sharing activity since, the requirements process 
still does not exist.
    I recognize that government can never have all the answers, 
but what is bothersome is that we don't even have all the 
questions. It is impossible to connect dots that are not 
visible.
    The second recommendation I want to address is the 
principal recommendation of the Critical Infrastructure Task 
Force.
    Upon his arrival at the department, Secretary Chertoff 
directed the HSAC to provide recommendation to advance 
critical-infrastructure policy and planning. On January 10, 
2006, the Critical Infrastructure Task Force, before a gallery 
of hundreds, publicly recommended the secretary promulgate 
critical-infrastructure resilience as the top-level strategic 
objective, the desired outcome to drive national policy and 
planning.
    After better than 19 months, I have been told that the 
department will soon be providing an explanation for its 
critical-infrastructure policy. If that explanation meets the 
secretary's charge for the task force and provides objectively 
measurable, manageable and sustainable critical infrastructure 
and a national preparedness standard that advances business 
continuity, supports corporate implementation of the Sarbanes-
Oxley Act provisions, provides for objectively measurable 
Terrorism Risk Insurance Act standards, was built from the 
point where all consequences are felt rather than directed 
through sector stovepipes, and the Federal Government is backed 
by local and regional authorities and Fortune 500 companies, 
the Infrastructure Security Partnership and the Council on 
Competitiveness, as resilience has been backed, if it provides 
the opportunity for scalable investment to reverse the 
consequence-amplifying condition of America's aging and 
exploitable critical infrastructure, and in an all-hazards 
environment builds a safer, stronger and better nation, the 
private sector will be onboard.
    Mr. Chairman, I am pleased to hear the progress being made 
on HSAC recommendations and applaud Mr. Hoelscher and the 
staff. However, my experience leads me to President Reagan's 
maxim: Trust, but verify.
    To that end, and consistent with your oversight 
responsibilities and the positive process-accelerating impact 
of this hearing, I recommend a congressional reporting 
requirement. The report would detail public recommendations 
made by the HSAC, the actions taken on them, recommendations 
not acted upon, and why, and by whose authority.
    In closing, and at the risk of demonstrating a solid grip 
on the obvious, let me emphasize that we are in this fight with 
a morally inferior cause and people who are unfortunately 
creative, agile, adaptive, dedicated, patient, self-
sacrificing, and already in or en route or near the homeland. 
Our adversaries have proven themselves effective at inflicting 
their godless acts.
    Thus, we need every asset at our disposal fully engaged in 
this fight for our existence. The HSAC, composed of dedicated, 
visionary, incredibly smart and successful people, from the 
spectrum of American society and political persuasion, is a 
repeatedly proven and, I am convinced, vital resource in this 
fight, and must be fully empowered.
    From my new perspective in the private sector, I can assure 
the committee the HSAC recommendations resonate and have 
traction in it. Thus, in the wake of the next catastrophe 
resulting from the failure of information-sharing or 
infrastructure protection, there will be no logical explanation 
for failure to implement to them.
    Mr. Chairman, I, again, thank you and the entire committee 
for the opportunity to be here before you on this most 
fundamental of homeland security issues. After 43 years of 
Federal service, it is difficult to stop working in the public 
interest, and I do not intend to do so. In whatever capacity I 
may, I am at your and the department's service.
    And I look forward to your questions, Mr. Chairman. Thank 
you.
    [The statement of Mr. Gaynor follows:]

                Prepared Statement of Jeffrey R. Gaynor

    Machiavelli said: ``There is nothing more difficult to take in 
hand, more perilous to conduct, or more uncertain in its success than 
to take the lead in the introduction of a new order of things, because 
the innovator has for enemies all those who have done well under the 
old condition, and lukewarm defenders in those who may do well under 
the new.''
    Charles Darwin noted: ``It is not the strongest of the species that 
survive or the most intelligent, but the ones that are most responsive 
to change.''
    And President Woodrow Wilson--in true American style said: ``If you 
want to make enemies, try to change something.''
    Mr. Chairman and members of the House Committee on Homeland 
Security, with those words as a preamble, it is a my distinct honor and 
privilege to provide this statement and to appear before you this day 
to discuss--and far-more importantly--to find immediate and objectively 
measurable solutions to fully optimize an organization that in my 
opinion is nothing short of a national treasure. I speak of the 
Homeland Security Advisory Council and its Senior Advisory Committees 
of the U.S. Department of Homeland Security.
    In the wake of the nationally transforming events of September 11, 
2001, President Bush created the Office of Homeland Security. On 
October 8, 2001, Governor Tom Ridge became America's first Homeland 
Security Advisor. Given both the President's and Governor Ridge's 
experience as state leaders and recognizing that Washington cannot and 
will never have the real-time understanding of the realities of life in 
our hometowns--a knowledge that is routinely possessed and used daily 
by their citizens, business owners, elected and appointed officials, 
and Emergency Responders--President Bush ordered the creation of the 
Homeland Security Advisory Council or HSAC and directed it be populated 
by people who could provide to Washington that understanding. Under the 
leadership of Governor, Homeland Security Advisor, and then Secretary 
Tom Ridge, the HSAC--as the President intended--became the Nation's 
principal Homeland Security Advisory Body.
    True to its Charter, the members of the HSAC and its Emergency 
Response, State and Local Officials, Private Sector and Academe and 
Policy Research Senior Advisory Committees, have leveraged their unique 
experience and have provided to the Secretary organizationally 
independent, visionary, non-partisan, and highly-executable 
recommendations spanning the spectrum of Homeland Security policy, 
planning, programs and capability creation. All of the HSAC products 
including the Task Force Reports and recommendations I will address are 
publicly available at www.dhs.gov/hsac.
    In 43 years of Defense and Civil Service, I have had the honor to 
serve with some of the most patriotic, caring, selflessly committed, 
innovative, courageous, intelligent, and far beyond intelligent--
smartest people on the planet. I count every member of the Homeland 
Security Advisory Council and its Senior Advisory Committees squarely 
in that group. My association with them was inspirational and both a 
personal and professional learning and growing experience. Prior to my 
retirement from government service, I served as the HSAC's Director of 
both its Emergency Response Senior Advisory Committee and its Critical 
Infrastructure Task Force and actively participated in the efforts of 
the Private Sector Information Sharing and Culture Task Forces. I am 
convinced that their recommendations deserve full and objective 
consideration and implementation. Unfortunately, over the past couple 
of years they have effectively received little of either.
    In an effort to further validate the value of the HSAC's 
recommendations and to correct a situation I believe endangers national 
security, I will cite three examples of HSAC recommendations, the 
responses to them, and provide a recommendation that relies on 
objective metrics to correct the situation.

Example One: Private Sector Information Sharing Task Force Report
    History is replete with the failures of vision and intelligence and 
resulting misdirected human action and grave consequence. To the extent 
this Nation is capable, it must leverage all of its resources to 
prevent or at least minimize the consequences of any failure of 
intelligence or understanding. Among other issues that the Private 
Sector Information Sharing Task Force report focused upon was 
requirements-based information sharing. Its highest priority 
recommendation was its first: ``DHS and the Private Sector should work 
in collaboration to develop a formal and objectively manageable, 
homeland security intelligence/information process.'' The Task Force 
quite simply, was recommending DHS create the capability for its 
private sector stakeholders to ask a question and receive an answer. 
The recommendation was in part designed to assure that the value and 
success of Homeland Security information reporting is not measured 
simply by the number of reports generated, but rather, is the product 
of the assessments of the department's Homeland Security Partners/
customers and responsive to the homeland security information 
requirements of high-consequence enterprises of the private sector and 
the high consequence critical infrastructure service providers that 
empower them and the Nation.
    From the corporate view, requirements based information sharing is 
designed to address business resilience issues including ``the delta'' 
between infrastructure capabilities and the corporations' need for--
beyond protected--operationally resilient critical infrastructure and 
global supply chain operation. To that end, and after my departure from 
the Department, I helped coordinate two meetings that were designed to 
demonstrate to the Department corporate willingness to support 
requirements-based information sharing.
    In December 2006, Terry Tapley, the Chief Information Security 
Officer of a national icon--McDonalds, hosted a meeting of Fortune 500 
companies. In addition to McDonalds, attendees included representatives 
of: the Boeing Corporation, Ford Motor Corporation, General Motors 
Corporation, Cardinal Health, The Bank of Montreal, J.P. Morgan/Chase, 
Target, Limited Brands, National City Bank, Wal-Mart, Metavante, 
McCormick Place, American Association of Railroads, Canadian National 
Rail, Pace Bus, AON Insurance, Progressive Insurance, TIBCO, Affiliated 
Computer Services, Waste Management, Illitch Holdings, Nationwide 
Insurance, and Computer Network Services. Also attending were 
representatives of the States of Illinois and Ohio.
    In the presence of Homeland Security Officials from the Information 
and Analysis and Infrastructure Protection organizations and the 
Private Sector Office, these corporations, consistent with information 
sharing recommendations made by the HSAC (in its Private Sector 
Information Sharing and Critical Infrastructure Task Force Reports), 
agreed to participate in Fusion Center development and requirements-
based information sharing efforts. Another meeting in Columbus, Ohio in 
January of this year yielded the same results--corporate willingness to 
support Homeland Security requirements-based information sharing 
efforts through the emerging fusion centers. At both meetings, the 
corporations urged expeditious action to that end on the part of DHS.
    These companies--like emergency responders and state and local 
officials--require the ability to ask questions and receive timely, 
accurate and actionable answers to drive investment and actions to 
maximize their all-hazards preparedness. A number of these companies 
are subject to Sarbanes-Oxley provisions and have a stake in Terrorism 
Risk Insurance Act issues. Of significance, some of these companies are 
also involved with current preparation of the City of Chicago's Olympic 
Bid for the 2016 Games with host city to be selected 2009. If Chicago 
is selected, the 2016 Olympics will become the single most challenging 
National Security Special Event since 9/11.
    For all of the above reasons, I believe American corporations are 
prepared to invest in ``Due Care'' efforts designed to ensure their 
competitiveness and economic viability in a 21st Century, globally 
interconnected and ``all-hazards'' marketplace. Because of the reality 
of interdependence, corporate investment in their infrastructure 
fosters improvement in the resilience of critical infrastructure in the 
cities and regions in which they operate. However, to justify such 
expenditures, these entities need timely, actionable information that 
thus far (and quite inexplicably) has not been made available to them.
    The reasons for the subsequent withdrawal of DHS support from a 
continuation of these meetings appear to be tied to ``organizational 
equities'' and overheard statements indicating the need to ``control'' 
the private sector's apparent thirst for requirements- based, timely, 
accurate, actionable and frequently updated Homeland Security 
Information. The corporate representatives attending the meetings in 
Chicago and Columbus, Ohio, like the members of the HSAC, understand 
objective measures of performance.
    As businessmen and stakeholders in America's security, they 
recognize the quality and effectiveness of any product--in this case 
Homeland Security Information reporting--is most appropriately judged 
by its customers. At this point in time, even though the Government may 
be unable to answer industry's questions/requirements, just having them 
makes DHS, and the Intelligence Community, better able to focus 
existing assets while simultaneously building programs that will gain 
congressional approval for the resources necessary to develop 
capabilities to answer them.
    An article in the June 17 edition of the Rutland (VT) Herald, and 
the Department's response spotlighted this continuing information-
sharing problem. In that article, the Commissioner of the Vermont 
Department of Safety and the state's top homeland security official 
questioned the quality of DHS information reporting. In response, he 
received a rebuke from the Secretary's spokesman who stated that the 
Commissioner's concerns were, among other things, ``disingenuous.'' I 
find this kind of response to the legitimate concerns of a state's 
Homeland Security principal unwarranted and disturbing. It highlights a 
perhaps subconscious mind-set or ``bunker mentality'' of a headquarters 
charged with a huge and unprecedented mission, but as a result of 
missteps, has become all too defensive and reactive.
    Again, we are in this fight together. Requirements-based 
information sharing with at least America's potentially high-
consequence producing corporations is an imperative that will synergize 
Homeland Security capabilities, build greater trust in government, 
reveal the ``dots'' that need connecting, build resilient critical 
infrastructure services to empower businesses and communities, and 
thereby enhance the Nation's preparedness and the effectiveness of its 
local, state, and Federal response capabilities. From a Congressional 
oversight perspective, requirements-based information sharing will 
provide objectively measurable standards to assess the effectiveness of 
DHS's Information and Analysis and Infrastructure Protection 
organization's information sharing efforts and, accordingly, manage 
resources in providing what the HSAC has consistently and repeatedly 
recommended: provision of requirements-based, timely, actionable and 
frequently updated Homeland Security information to the private sector.

Example Two: The Critical Infrastructure Task Force (CITF) Report
    Consistent with the Secretary's direction to the CITF to: ``Review 
current and provide recommendations on advancing national critical 
infrastructure policy & planning to ensure the reliable delivery of 
critical infrastructure services while simultaneously reducing the 
consequences of the exploitation, destruction, or disruption of 
critical infrastructure products, services, and/or operations,'' the 
CITF called for the transformation of critical infrastructure 
protection (CIP) policies and standards from current objectively 
unmeasurable iterations of ``top-down'' (i.e., Federally dominated) 
Cold-War and failed CIP programs (note the consequence amplifying 
results of protected critical infrastructure failures during Katina) to 
an objectively measurable, achievable and sustainable resilience 
standard (i.e., desired time to reconstitution). The CITF recommended: 
Promulgate Critical Infrastructure Resilience (CIR) as the top-level 
strategic objective--the desired outcome--to drive national policy and 
planning.
    The CITF's principal and subsequent recommendations and the logic 
behind them reflect the results of highly-disciplined study by 
Americans of unquestioned vision, intellect, loyalty and 
accomplishment. They represent the critical infrastructure, business, 
community, regional and National perspectives and very publicly called 
for transformation in national Critical Infrastructure policy, plans, 
programs and objectives to ``The Resilience Standard.''
    Thus, in the wake of the next guaranteed failure of protection and 
resulting consequences that could have been avoided, there will be no 
cover for supporting the status quo.
    While I have spoken throughout the country on ``The Resilience 
Imperative'' and have been published on the subject in the United 
Kingdom's Defence Management Journal and Freight Transport Review, and 
somewhat colorfully featured in the Cover Story ``Snapping Back'' in 
the June 15 edition of Government Executive Magazine, I urge the 
Committee if inclined not to take my word for anything on this issue to 
read the People's Liberation Army's paper: ``Unrestricted Warfare,'' 
Steve Flynn's Book, ``The Edge of Disaster: Rebuilding a Resilient 
Nation'' and the reports of the HSAC's Critical Infrastructure Task 
Force, The Infrastructure Security Partnerships Regional Disaster 
Resilience Guide (www.tisp.org) and the Council on Competitiveness's 
newly released Transformation report at: (http://www.compete.org/pdf/
Transform.TheResilientEconomy.pdf)
    In its review of the resilience imperative, the Council on 
Competitiveness noted that the current policy tends to speak to 
Critical Infrastructure Protection in isolation--almost as though it 
were a national good like national security. But the fact of the 
matter--which is by now almost axiomatic--is that most of the critical 
infrastructure is owned by the private sector. Current policy and plans 
seem to ignore the fact that 100% of the private sector and the country 
depends on the operational resilience of those interdependent cyber and 
physical infrastructures for their own competitiveness and indeed 
survival. So an important question is: Why does the market not demand 
reliability, redundancy and resilience from their supporting critical 
infrastructure providers? The Council sees three explanations for the 
lack of market drivers:
    First: Companies themselves have traditionally viewed operational 
risks--like critical infrastructure--as a back office function. Thus, 
critical infrastructure has far less visibility in the C Suite than 
financial risks. But, the Council noted, there is an urgent need for 
companies to become more risk intelligent--to understand that these 
kinds of business-empowering critical infrastructure realities that are 
``bet the company'' risks to which CEOs and boards must focus their 
attention.
    Second: The Federal Government's critical infrastructure policies 
and approach work at odds with market drivers. The Council points out 
that the government tends to focus only on catastrophic failures. But, 
business investment is driven by a spectrum of risks not just a narrow 
slice of high-end risks. Ironically, the issues that companies must 
address to meet the day to day turbulence of operating in a global 
economy go a long way toward creating the capabilities to cope with 
catastrophe as well.
    Third: The Government's policies have almost uniformly focused on 
fences and firewalls, not strengthening the market drivers for 
resilience.
    The report notes the need for objective metrics that companies can 
use to model the impact of critical infrastructure failures on their 
businesses.
    As is evident from the results of the corporate meetings in Chicago 
and Columbus Ohio, I am confident that once costs of infrastructure 
failure become more transparent, companies will act. To that end and 
consistent with the efforts of The Infrastructure Security Partnership 
and the content of its Regional Disaster Resilience Guide, the Council 
recommended creation of regional centers for information exchange. The 
Council noted that linkages to critical infrastructures are almost 
always local or regional, not national. It therefore stands to reason 
that discussions regarding critical interdependencies, the potential 
for crisis and overall preparations, mitigation capacities, and the 
overall resilience of critical infrastructure services should be 
regional as well.
    Albert Einstein defined insanity as ``doing the same thing over and 
over again and expecting a different result.'' In other words--
iteration over innovation is not an acceptable answer to the Nation's 
homeland security requirements. In lay terms, it simply doesn't work to 
leap a twenty foot chasm in 20 one-foot jumps.
    The CITF Report recommendations provided the chasm spanning 
``leap'' and advancement in national Critical Infrastructure Planning 
and policy Secretary Chertoff requested. The resilience standard 
recommended by the CITF leverages the preparedness ``basics'' that are 
CIP policy and efforts. The report's recommendations, as some have 
defensively suggested, does not abandon protection efforts. Resilience 
recognizes the lessons of infrastructure protection history and 
addresses foreign pronouncements and threats including the above 
mentioned Peoples Liberation Army document ``Unrestricted Warfare.''
    Resilience also provides an objective, universally understood and 
accepted investment and success metric--Time. Sufficient protection is 
not objectively quantifiable. It is impossible to answer the question 
How Much protection is enough? Thus, a proper level of protection is 
impossible to determine much less achieve and maintain. Since 
resilience is objectively measurable it advances historic, ongoing, and 
projected investments in business and government continuity and 
resiliency and Sarbanes-Oxley Act ``Due Care'' provisions. The 
resilience standard also supports the development of Terrorism Risk 
Insurance Act standards and addresses the physical realities of 
infrastructure placement and operation which operate in communities not 
sectors. Resilience is also a proactive rather than reactive and 
defensive mindset. Unlike the protection mindset that psychologically 
places an enterprise on the inside looking out, resilience addresses 
the ``predator's view'' across an entire enterprise, community, or 
region and mitigates consequences regardless of their cause. (e.g., 
terrorist, insider, self-inflicted, accident, nature, cyber, physical).
    The resilience standard is also nationally (and potentially 
globally) empowering.
    Because it is built from where the consequences will be felt, 
resilience is a shared and integrating responsibility and an 
objectively measurable standard and process for a scalable, 
technological, economic, social, and a long-overdue investment in 
America's foundation (i.e., its Critical Infrastructure).
    Since resilience is an objectively measurable condition it can be 
learned. It and the technologies that will support and sustain its 
achievement will provide a standard, processes and product that can 
advance the human condition throughout the planet.
    During the public announcement of its recommendations, CITF member 
and Former Governor of Massachusetts Mitt Romney summed-up the need to 
make the policy and national preparedness transformation from 
protection to resilience: ``You know, protection is where we tend to 
focus in government, but it is very, very clear that protection is not 
enough. . .''
    Unfortunately, no actions have been taken or credible explanations 
provided for failure to implement the CITF's principal recommendation.

    The third example--Recommendations of the HSAC's Culture Task Force
    Secretary Ridge was emphatic in constantly focusing his DHS 
(formerly White House) staff on the reality: ``When our hometowns are 
secure the homeland will be secure.''
    In my experience, his focus was exactly where it should be--on 
where all human, physical, economic, and societal consequences will be 
felt and thus where all preparations and capabilities for meeting the 
challenges of the ``all-hazards environment'' are best known and 
understood and can be decisively acted upon.
    In the wake of DHS's understandable but less than admirable showing 
in the 2004 Federal Workplace Survey, and with the 2006 results on the 
horizon, Secretary Chertoff directed the HSAC to form a Culture Task 
Force to provide recommendations on shaping and improving the 
department's culture. In the wake of the even less flattering results 
of the 2006 Federal Workplace Survey, the Culture Task Force provided 
its recommendations.

    Chief among the recommendations were:
        <bullet> Replace the Federal buzzword ``Human Capital,'' (the 
        last time we considered humans as ``capital'' we were fighting 
        a civil war);
        <bullet> provide the opportunity for innovation; and
        <bullet> establish a Deputy Secretary for Operations within DHS 
        Headquarters

    The Culture Task Force's recommendations were designed to:
        <bullet> First: Recast and foster empowerment of the 
        department's workforce. They are all valuable employees, they 
        are not ``capital'' to be bartered.
        <bullet> Second: Create an integrated Homeland Security 
        Innovation Center to actively track and ensure disciplined 
        review, processing, and response to ideas submitted to the 
        department and its components focused on providing continuous 
        improvement in Homeland Security policies, programs, and 
        capabilities.
        <bullet> Third: Provide the operational expertise and 
        experience necessary to rather than build a ``Team DHS'' 
        culture, build a unifying Homeland Security Mission Culture. In 
        other words, build a culture with an intense focus on Homeland 
        Security operations and capabilities of the likes we saw and 
        admired in the actions of General Russell Honore and now Coast 
        Guard Commandant Admiral Thad Allen in the wake of Hurricane 
        Katrina.
    To the best of my knowledge requirements based information sharing 
is still being discussed, no action has been taken on the 
recommendations of the Critical Infrastructure Task Force--although the 
word resilience was added at the 11th hour to the National 
Infrastructure Protection Plan. The Culture Task Force recommendation 
to create a Deputy Secretary for Operations has been rejected--largely 
for organizational (not operational) reasons.
    From my experience, the non-public reception of the Task Force 
Reports' recommendations reflect fatigue and thus an organizational 
preference for the status-quo, iteration over innovation and a 
concentration on ``organizational equities'' and processes. This is 
reflective of a headquarters ``bunker mentality'' that is inconsistent 
with the imperative of continuous improvement in the Nation's homeland 
security capacities and preparedness--the Department's sole reason for 
existence. As Mr. Frank Cilluffo, the first Executive Director of the 
HSAC used to put it: ``The purpose of homeland security is to make the 
Nation not only safer, but stronger and better.'' I totally agree and 
thus given the need for continuous improvement in any national security 
entities operations find the Department's responses to these and other 
HSAC recommendations a condition that must be corrected.

Recommendation:
    Like the objectively measurable standards imbedded in the HSAC's 
recommendations on requirements-based information sharing with the 
private sector, critical infrastructure resilience, creating a mission-
based culture, and empowering innovation within DHS, it is imperative 
that objectively measurable standards be applied to the operation of 
the HSAC and all Homeland Security Advisory Committees.
    Given the ``all-hazards environment'' in which we live and the 
resulting the need to:
        <bullet> Provide requirements-based, timely, accurate and 
        actionable information to all homeland security stakeholders,
        <bullet> Arrest the catastrophic and even consequence 
        amplifying failures of critical infrastructure protection that 
        have witnessed and will occur again,
        <bullet> Establish continuous innovation and a mission-first 
        culture throughout the department,
    I urge the Congress to create a quarterly HSAC and perhaps DHS 
Committee reporting requirement. The report would detail the public 
recommendations made by the HSAC and perhaps all Homeland Security 
Advisory Committees operating under the Federal Advisory Committee Act, 
the actions taken on them, recommendations not acted upon, and why and 
by whose authority.
    In order to demonstrate work actually performed, I would include in 
the report the program and budget resources being applied to making 
recommendations reality. I would also urge the Committee to engage the 
resources of the Government Accountability Office and the DHS Inspector 
General in this reporting effort to ensure process and organizational 
reactions to questions posed to it (i.e., discussions, intent to act) 
is not confused with objectively measurable progress.
    In closing, and at the risk of demonstrating a solid grip on the 
obvious, let me emphasize, that America is in a fight with morally if 
not intellectually inferior causes and people who are unfortunately 
creative, adaptive, dedicated, patient, imbedded and self-sacrificing. 
These adversaries have proven themselves effective in the godless acts 
of terrorism they inflict on both Muslim and non-Muslim societies. 
Thus, we are all in this fight for our existence. The Government does 
not have all the answers (not even all the questions at this point), 
but it does have the Constitutional responsibility to ``. . . provide 
for the common defense.'' The President and the Congress realize that 
Government and the Department of Homeland Security cannot do it alone. 
The HSAC--composed of people from both sides of the aisle--has 
repeatedly provided sound and executable recommendations throughout its 
history. Those that I highlighted above have, consistent with its 
Federal Advisory Committee Act responsibilities, been clearly and 
convincingly articulated in public venues. Thus, there will be no 
logical, ethical, moral, political or legal cover in the wake of the 
next catastrophe resulting from an ``all-hazards'' failure of 
intelligence, infrastructure protection, and/or organizational culture.
    Mr. Chairman, I again thank you and the entire Committee for the 
opportunity to have my thoughts captured for the record and to appear 
before the committee on this most fundamental of homeland and national 
security issues. After 43 years of Federal service, it is difficult to 
stop working in the public interest and I do not intend to do so. In 
whatever capacity I may, I am at your and the Department's service.
    In closing, I offer a quote from Abraham Lincoln: ``The dogmas of 
the quiet past are inadequate to the stormy present. The occasion is 
piled high with difficulty, and we must rise with the occasion. As our 
case is new, so we must think anew and act anew.''

    Chairman Thompson. Thank you very much for your testimony.
    We will now hear from Mr. Beardsworth for 5 minutes.

  STATEMENT OF RANDY BEARDSWORTH, FORMER ASSISTANT SECRETARY, 
        STRATEGIC PLANS, DEPARTMENT OF HOMELAND SECURITY

    Mr. Beardsworth. Thank you, Mr. Chairman.
    As you mentioned, I was former assistant secretary at the 
Department of Homeland Security. Before that, I was acting 
undersecretary for border and transportation security. I came 
to the department in 2002 during the transition office to help 
set the department up. But I am speaking as a private citizen 
today.
    I am not an expert on FACA; I am not an expert on Federal 
advisory committees. I am an observer, consumer and a 
contributor, principally of the HSAC. I was also co-chair of 
the Office of State and Local Training Advisory Committee to 
the Federal Law Enforcement Training Center.
    My experience is that FACs in general, and the HSAC in 
particular, their greatest strength is the expertise, the 
diversity, the different perspective. The depth and breadth of 
knowledge that they bring to the sponsoring agencies is their 
greatest strength.
    There is a natural tension between FACs and sponsoring 
agencies, particularly the more visible and higher-level ones, 
and that is a tension between transparency and candor. 
Transparency is critically important, and every citizen has the 
right to know what is going on. The secretary or senior public 
officials also want to be able to ask the dumb questions and 
get the advice and expertise from the committee members.
    My observations of the HSAC is that the members were high-
quality, they were enthusiastic, they had a sense of purpose, 
and they were tremendously dedicated.
    I will speak briefly about two reports that I was 
interested in. The first one was the critical infrastructure 
report that Jeff just talked about.
    And my interest in that was in the emerging idea of 
resiliency. About the same time as the task force was working 
on their issues, I was beginning to think about resiliency in 
my capacity. We collaborated, we discussed what it meant. And I 
became convinced, as I think the committee, did, that if 
critical infrastructure protection was Homeland Security 101, 
resiliency was really Homeland Security 301. It is critically 
important, and I think that was well-said in the HSAC report.
    The second issue and report that I would like to talk a 
little bit about was the Task Force on the Future of Terrorism.
    My interest in this began about a year before the task 
force was brought together. I brought together all of the folks 
within the department that were dealing with any aspect of 
radicalization. And the first thing that we found was that, 
one, we didn't understand exactly what we meant by 
``radicalization,'' and, two, we didn't have an idea of what 
each other was doing.
    We formed the Radicalization Working Group, of which I was 
chair, and we established a model of how we looked at 
radicalization. Starting at one end of the spectrum would be 
the point at which somebody has become radicalized, is about 
ready to engage in a violent act. And the mitigating factor, 
the way to deal with that, is through intelligence and law 
enforcement.
    There is a more mid-term focus on communications, community 
relationships, trust-building, crisis management, that is 
equally important. And then there is a long-term perspective, 
which has to do with the fundamentals of why we don't have the 
same problems in America that Europe has, for example. And I 
think that goes to some fundamental American ideals that, if 
there were questions about that, I would be delighted to talk 
about.
    But my interest with the task force was to ensure that the 
task force actually thought about more than just the particular 
act of violence at one end of the spectrum; that they included 
American ideals as a key element in the integration of at-risk 
communities. In other words, it is important to try to 
intercept an individual from becoming radicalized, but it is 
also important to take the moral oxygen out of the community 
where the bad guys may operate.
    In summary, the value of the interaction with Federal 
advisory committees goes both ways. It is to advise the 
sponsoring agency, the senior official, but it is also an 
opportunity to heighten the public discourse on key issues: to 
wit, resiliency, the future of terrorism, and so forth.
    Federal advisory committees need to seek a balance between 
transparency and providing unfettered, unvarnished opinions to 
senior leaders. They need to try to focus on strategic issues 
and fight through the noise of the tactical issues that the 
sponsoring agency may be dealing with on a day-to-day basis.
    I think the HSAC in particular has matured and continues to 
mature. And, as I said, that it is not just the reports, it is 
the interaction and the public discourse that is important.
    Thank you, sir.
    [The statement of Mr. Beardsworth follows:]

                 Prepared Statement of Randy Beardworth

    Chairman Thompson, Ranking Member King, and distinguished Members 
of the Committee, thank you for the opportunity to share my 
perspectives on Federal Advisory Committees, and specifically the 
Homeland Security Advisory Committee (HSAC).
    In the fall of 2006, I resigned my position as Assistant Secretary 
of Strategic Plans within the Department of Homeland Security's Policy 
Directorate. I served previously as Acting Under Secretary of Border 
and Transportation Security, a position I assumed in March 2005. I 
first joined the Department in December 2002 as a member of the 
transition team that established the Department of Homeland Security, 
and served in each of my positions at DHS as a career civil servant. 
Though I am currently the Vice President of Human Capital and Corporate 
Communications for Analytic Services, Inc., a not-for-profit 
corporation that provides analytic support to the government in both 
national security and homeland security, my testimony today is as a 
private citizen.
    In my various capacities within the Department of Homeland Security 
and in my current capacity, I have enjoyed the opportunity to meet and 
brief the Homeland Security Advisory Council on a number of topics. I 
have read and consumed selected reports, and have spoken with several 
of the members on a variety of topics. During my tenure at DHS, 
however, I had no responsibility for the performance of the HSAC or for 
the HSAC's interaction with its primary beneficiary--the Secretary. I 
was and remain, in effect, a consumer of their products and an observer 
of their interaction with the Department and with the public. In 
addition to my interaction with the HSAC, I also co-chaired the 
Advisory Committee to the Office of State & Local Training in support 
of the Federal Law Enforcement Training Center, a DHS Federal Advisory 
Committee (FAC) external to the HSAC.
    You have asked me to address several issues at today's hearing: the 
efficiency and effectiveness of the HSAC in addressing pressing issues 
of Homeland Security, the extent to which the Department makes use of 
HSAC reports, and the degree to which the Department capitalizes on the 
talents of the HSAC's individual members.
    The most valuable contributions by any Federal Advisory Committee, 
and the HSAC in particular, come by way of the depth of knowledge and 
broad perspective of individual members. The effectiveness of FACs 
depends largely on their ability to master a tricky balancing act 
between transparency and candor. The public has a right to understand 
the mechanics and nature of the Committee itself, including the 
composition of its membership, its operation, and its recommendations. 
Senior officials in the Executive branch, without eschewing 
transparency, need candid advice from experts unfettered by the 
constraints of press coverage and public exposure.
    In general, and not in reference to any committee in particular, 
Federal Advisory Committees are most successful when committee members 
and the sponsoring official recognize these dynamics. Effectiveness, to 
a large degree, depends on the willingness of Committee members to 
gracefully accept their moments in the national spotlight--informing 
the public while not gratuitously antagonizing the sponsor, and 
maintaining honesty and frankness in private discussions among 
themselves and with senior officials. Committee members must ensure 
their reports are of the highest quality and reflect the best thinking 
available in their area of responsibility. The sponsor, conversely, 
must recognize that the advisory committee is not a rubber stamp for 
administration policy, but is, indeed, a group of experts who are 
dedicating themselves to helping the government understand and solve 
some of the nation's most pressing issues. Public meetings and reports 
are part of this arrangement and can be useful tools in shaping the 
public discourse. It is also critical that the sponsor give sufficient 
time to the advisory committee. Nothing is more frustrating to 
committee members than to work diligently on a problem without the 
opportunity to present findings, engage in a discussion with the 
sponsor, and be taken seriously as a valued contributor.
    During the period I was most engaged with the HSAC, I was impressed 
by both the quality of its membership--their enthusiasm and sense of 
purpose in helping the Department with the tough issues--and the 
Department's efforts to inform and educate the committee on DHS 
activities. I was also aware of the types of tensions not uncommon to 
Federal Advisory Committees, including the tension between senior 
officials' lack of enthusiasm about engaging the Committee publicly and 
the Committee's resultant lack of meaningful access to decision makers. 
Another source of tension was the Department's focus on short term, 
tactical, and political issues as opposed to the HSAC's longer term 
strategic approach to issues.
    I was particularly interested in three of the HSAC's products in 
recent years--its reports on Critical Infrastructure, the Future of 
Terrorism, and DHS Culture. I will comment upon two of these reports; 
the Task Force on Critical Infrastructure Report, of which I was a 
consumer, and the Task Force on the Future of Terrorism Report, of 
which I was both a consumer and contributor. While keenly interested in 
the Culture Report, I had little interaction with the Task Force and 
the Task Force's report was issued several months after I departed the 
Department.
    The Critical Infrastructure Task Force Report illustrated the long 
term focus of the HSAC. The task force gave considerable, 
intellectually sound thought to this important national issue. The 
portion of the report I personally found most interesting was that of 
resilience, a topic I had discussed with the task force several times. 
I had been impressed with the notion and language of resilience coming 
out of the United Kingdom, and the important point on that side of the 
Atlantic about the necessity of bouncing back or recovering after an 
attack. This notion of resiliency was not simply about restoring 
services, but about attitude and confidence in the overall system. In 
my discussions with the HSAC task force it became clear to me that the 
task force and I were independently reaching similar conclusions about 
critical infrastructure, and if critical infrastructure protection was 
Homeland Security 101, Resiliency would be Homeland Security 301. We 
had to begin to shift our focus to restoring systems rather than 
protecting individual pieces of critical infrastructure. This was 
particularly evident in the aftermath of Katrina, and as I reflected 
back to the 2005 TOPOFF 3 exercise, I realized that we were clearly 
beginning to think about resiliency then, though not as an overarching 
goal or systematic way of thinking about critical infrastructure. 
Following my discussions with the task force, I made an effort to 
institutionalize the notion of resiliency, and built the concept into 
the Department's draft 2006 Strategic Plan.
    The second HSAC project in which I had a particular interest was 
the report of the Task Force on the Future of Terrorism, a report in 
which I was cited as a subject matter expert. I was very much 
interested in seeing that the report reflected the emerging views of a 
group of experts I had assembled on the subject--views concerning the 
importance of American ideals as a key element in the integration of 
at-risk communities in preventing violent homegrown extremism.
    A year or so before the HSAC Task Force was established I convened 
a meeting of the various offices and components within the Department 
working on any aspect of ``radicalization,'' a concept whose definition 
was, at the time, vague and ambiguous and an issue on which interagency 
efforts were poorly coordinated. The first thing we realized was that 
each office or component had different notions of what radicalization 
meant, and that few offices knew about or understood the work of the 
others. In fact, the Department was engaged in a number of activities 
under the broad rubric of understanding and countering 
``radicalization.'' The Intelligence and Analysis Directorate, for 
example, was engaged in intelligence community activities related to 
radicalization and was conducting a systematic survey of radicalization 
dynamics within several key states. The Science and Technology 
Directorate had two significant initiatives that offered resources to 
study the issue: the Center of Excellence for the Study of Terrorism 
and Responses to Terrorism (START) at the University of Maryland, and 
an academic partnership program that could draw upon prominent experts 
within the social sciences. The U.S. Citizenship and Immigrations 
Service was coordinating the ``Task Force for New Americans,'' an 
interagency effort to help legal immigrants embrace the common core of 
American civic culture. The Office of Civil Rights and Civil Liberties 
was providing leadership within government on opening avenues of 
communication with key communities, on managing crisis communication, 
and on highlighting the government's commitment to investigating and 
prosecuting hate crimes and discrimination. The Policy Directorate was, 
of course, engaged in long term strategies and was the primary 
interface with the larger government community on planning. Out of this 
first meeting emerged the Department's Radicalization Working Group 
(RWG).
    The RWG would eventually grow to include members from across the 
Department, including staff members of the HSAC, and would provide 
subject matter analysis for the report of the Task Force on the Future 
of Terrorism. The RWG hosted a number of forum events (including one 
that examined the dynamics and structural contrasts of radicalization 
in the U.S. and Europe) and eventually identified a number of strategic 
advantages inherent to the American civil and social fabric--namely, 
our low barriers to economic participation, the religiously accepting 
and ethnically plural character of our society, and the nature of the 
civil democratic spirit that permeates our culture. The RWG established 
relationships with partners at the Department of Justice, the Bureau of 
Prisons and its Correctional Intelligence Initiative, the Department of 
State, and foreign counterpart agencies in the United Kingdom, Canada, 
France, the Netherlands, and other nations interested in the issue and 
dynamics of radicalization. The HSAC Task Force was able to capitalize 
on these relationships in the creation of its report, and was able to 
draw upon members of the group as subject matter experts to testify on 
the Department's emerging approach in understanding the dynamics of the 
issue, enhancing the capabilities of state and locals, and engaging 
with key communities to prevent estrangement and cultural isolation.
    While the focus of the report of the task force was far broader 
than radicalization, it included a number of findings from the 
Department's Radicalization Working Group. The report served to educate 
various state, local, and private sector leaders on the dynamics of the 
issue, and highlighted its importance to senior leadership at the 
Department. The report also foreshadowed the recent National 
Intelligence Estimate on the Terrorist Threat to the U.S. Homeland, 
released last week.
    As an aside, it is important to remember that understanding 
terrorism, at least in the U.S., is an evolving discipline. In the two 
years that I have been engaged in this issue I have seen tremendous 
progress in understanding the phenomenon of radicalization. The task 
force's report was an appropriate snapshot at the point it was written.
    Certainly the issues the HSAC has addressed have been important 
strategic issues. While the quality and impact of the reports vary, all 
of the reports have salient points and have helped shape the discussion 
within the Department and in the public. While the primary consumer of 
the Committee's work is the Secretary, the real audience is the senior 
leadership and policy shapers within the Department, and in that 
respect I give the HSAC passing marks in both efficiency and 
effectiveness. My sense is that while the reports are useful, the real 
impact of the Committee lies in the personal interchanges with senior 
staff during the course of research and shaping ideas and 
recommendations. I personally found these discussions to be most 
useful. I cannot speak for the Secretary, but I presume that his 
ongoing interactions and discussions with the HSAC and members of the 
HSAC were as beneficial, if not more so, than the actual reports.
    In summary, Federal Advisory Committees and their sponsors must 
balance the need for open and transparent processes and discussions 
with the value of frank and candid exchanges of ideas. In my personal 
experience with the HSAC I have seen a maturing that indicates this 
balance is acceptable. Finally, the value of the HSAC resides not just 
in the reports it issues, but also in the exchange of ideas as it 
researches and prepares the report.
    Thank you Chairman Thompson, Ranking Member King, and Members for 
this opportunity to speak on this important issue.

    Chairman Thompson. Thank you very much for your testimony.
    We will now hear from Ms. Weismann for 5 minutes.

    STATEMENT OF ANNE WEISMANN, CHIEF COUNSEL, CITIZENS FOR 
            RESPONSIBILITY AND ETHICS IN WASHINGTON

    Ms. Weismann. Mr. Chairman, members of the committee, thank 
you for the opportunity to testify before you today on this 
important issue.
    While agencies' use of Federal advisory committees has 
proliferated, the public has not seen always an increased 
benefit from the vast sums of money that such committees cost 
the Federal Government. Just as troubling, advisory committees 
are too often established to be mouthpieces for an agency's 
predetermined agenda.
    My organization, Citizens for Responsibility and Ethics in 
Washington, or CREW, has been tracking, to the extent we can, 
the activities of agencies like DHS, both in terms of their 
effectiveness as an overall agency and their compliance with 
laws such as the FACA.
    Based on our observations, CREW believes there are changes 
that this committee could propose for how DHS oversees and 
manages the many advisory committees under its direction that 
would lead to greater transparency, efficiency and usefulness 
of the committees.
    We find ourselves today with what has been called a 
``shadow government'' of at least 900 advisory committees 
weighing in on a range of critically important issues, from 
terrorism to climate change to the expenditure of billion-
dollar-a-year Federal programs.
    We understand that for fiscal year 2007 DHS plans to spend 
at least $8 million on advisory committees. And that is why we 
think it is so important that this committee review of those 
activities, particularly in light of the revolving-door 
syndrome to which DHS has been subject almost since its 
inception and which raises serious issues of potential 
conflicts of interest.
    Last year, the New York Times reported that dozens of 
former DHS officials are now trading in on their agency 
relationship and domestic security credentials that they 
acquired while at DHS in their now-private-sector, high-paying 
jobs as executives, consultants or lobbyists for companies that 
do billions of dollars a year of domestic security business.
    To the extent that officials like these, former officials, 
are now advising DHS on security-related matters as members of 
an advisory committee, there is a risk that their participation 
undermines the objectivity of any committee recommendations.
    It is difficult for watchdog groups like CREW, however, to 
get a handle on precisely what advisory committees are doing 
and the extent to which they are complying with the FACA's 
requirements. This is because if a committee chooses to flout 
the law and operate in secret, there is simply no way for CREW 
to find out until the agency takes a public action based on the 
recommendations of an advisory committee.
    That is why we submit that litigation that our group 
engages in is often a crude and ineffective way of ensuring an 
agency's adequate and timely compliance with the FACA, because 
by the time we find out about a problem, it is often too late 
to fix it.
    Therefore, we support the idea of building more 
accountability for advisory committees within the agency 
itself. Toward that end, this committee should consider 
legislation that would require DHS to have stringent conflict-
of-interest controls in place when choosing membership on an 
advisory committee.
    You should also consider a centralized office or position 
within DHS that oversees and coordinates all the activities of 
advisory committees and that pays particular attention on the 
public accountability provisions of that statute, which include 
the FACA's requirements that the committees be fairly balanced; 
that their meetings, records and reports be open to the public; 
and that the public receive adequate notice of advisory 
committee meetings.
    We also urge the committee to consider establishing metrics 
that would periodically assess the usefulness and efficacy of 
all DHS outstanding advisory committees.
    Beyond DHS, CREW supports legislation that would close up 
loopholes in the FACA itself that agencies have exploited to 
avoid operating in the public light. For example, if agencies 
set up working groups or sub-groups that do the primary work of 
the committee, the courts have found that those working groups 
and sub-groups do not need to comply with FACA and therefore do 
not need to comply with FACA's openness requirements.
    We recognize that legislative changes to the FACA are 
beyond the jurisdiction of this committee, but we hope that 
this committee's work here will spur others in Congress to 
consider broader legislative changes.
    Given the critical mission with which DHS is charged, it is 
imperative that agency decision-makers are provided with 
recommendations that are the product of a disinterested 
committee representing a broad range of viewpoints and 
expertise. At the same time, the American taxpayer should not 
have to bear the burden of funding unproductive committees that 
have long outlasted their usefulness and survive only out of 
administrative inertia.
    I would be happy to answer any questions you have.
    [The statement of Ms. Weismann follows:]

                 Prepared Statement of Anne L. Weismann

    Mr. Chairman, Ranking Member King and Members of the Committee, 
thank you for the opportunity to testify before you today on this 
important issue. While agencies' use of federal advisory committees has 
proliferated, the public has not seen an increased benefit from the 
vast sums of money that such committees cost the federal government. 
Just as troubling, advisory committees are too often established to be 
mouthpieces for an agency's pre-determined agenda. Unfortunately, the 
advisory committees that the Department of Homeland Security (``DHS'') 
has set up appear to be no exception.
    My organization, Citizens for Responsibility and Ethics in 
Washington (``CREW''), has been tracking the activities of agencies 
like DHS, both in terms of their effectiveness and their compliance 
with the Federal Advisory Committee Act (``FACA''). My testimony today 
is based on CREW's observations, as well as our understanding of what 
the FACA requires and how, as a legal matter, agencies fall short of 
the statute's requirements. In addition, CREW believes there are 
legislative changes that this Committee could propose for how DHS 
oversees and manages the many advisory committees under its direction 
that would lead to greater transparency, efficiency, and usefulness of 
the committees.
    When Congress passed the FACA in 1972, it had a two-fold purpose: 
to reduce wasteful expenditures by federal agencies on advisory 
committees and to make the committees more accountable to the public. 
In particular, Congress found that the government had not adequately 
reviewed the need for many of the then-existing advisory committees. To 
address this concern, Congress declared that ``new advisory committees 
should be established only when they are determined to be essential and 
their number should be kept to the minimum necessary.'' 5 U.S.C. App. 
Sec. 2(b)(2). In addition, Congress declared that advisory committees 
``should be terminated when they are no longer carrying out the 
purposes for which they were established.'' 5 U.S.C. App. Sec. 2(b)(3).
    On the issue of accountability, Congress made clear its concern 
that special interest groups could hijack advisory committees and steer 
them to their own agendas, thereby exerting ``undue influence'' on 
legislative decisions.\1\ To address this concern, Congress required 
that membership of advisory committees be ``fairly balanced in terms of 
points of view represented and the functions to be performed by the 
advisory committee.'' 5 U.S.C. App. Sec. Sec. 5(b)(2) and (c). This 
requirement was intended to ensure that advisory committees ``not be 
influenced inappropriately by the appointing authority or any special 
interest.'' \2\
---------------------------------------------------------------------------
    \1\ H.R. Rep. No. 92-1017, as reprinted in 1972 U.S.C.C.A.N. at 
3496 (``One of the great dangers in this unregulated use of advisory 
committees is that special interest groups may use their membership on 
such bodies to promote their private concerns.'').
    \2\ H.R. Rep. No. 92-1017, as reprinted in 1972 U.S.C.C.A.N. at 
3496.
---------------------------------------------------------------------------
    Despite these clear statutory directives, we find ourselves today 
with what has been called a ``shadow government'' of at least 900 
advisory committees \3\ weighing in on a range of critically important 
issues, from terrorism to climate change and the disbursement of a six-
billion dollar Reading First program, too often with little oversight 
or review by the agencies that created them. A report issued by the 
Center for Public Integrity highlights how many of these 900 
committees, composed collectively of 67,000 members at a cost of almost 
$400 million annually, have taken advantage of loopholes in the FACA to 
avoid the statute's transparency requirements and how many are plagued 
by flagrant conflicts of interest.\4\ In other words, despite the 
passage of the FACA, we are facing many of the same problems that led 
Congress to enact the FACA in the first place.
---------------------------------------------------------------------------
    \3\ See GAO-04-328 Federal Advisory Committees, p. 14.
    \4\ Jim Morris and Alejandra Fernandez Morera, Network of 900 
Advisory Panels Wields Unseen Power, Center for Public Integrity, March 
27, 2007, available at http://www.publicintegrity.org/shadow/
report.apx?aid=821.
---------------------------------------------------------------------------
    We understand that for Fiscal Year 2007, DHS plans to spend more 
than $8 million a year on advisory committees. CREW applauds this 
Committee's review of those committees, particularly in light of the 
revolving door syndrome to which DHS has been subject almost since its 
inception, which raises the potential for serious conflicts of 
interest. Last year The New York Times reported that dozens of former 
DHS officials are now trading in on their agency relationship and 
domestic security credentials acquired at DHS in their private-sector, 
high paying jobs as executives, consultants or lobbyists for companies 
that do billions of dollars a year of domestic security business.\5\ 
For example, three months after leaving DHS, former Secretary Tom Ridge 
was appointed to the corporate board of Savi Technology, a company that 
DHS promoted under Secretary Ridge's leadership. To the extent any of 
these former DHS officials are now advising DHS on security-related 
matters as members of an advisory committee, their participation 
undermines the objectivity of any committee recommendations. The Center 
for Public Integrity's report expressly notes the dangers posed by 
advisory committees that are ``packed with industry representatives.'' 
\6\ In our experience, advisory committees too often are set up as a 
rubber stamp for a pre-determined outcome. In that way they thwart, 
rather than serve, the FACA's purpose of facilitating a process where 
independent, outside voices can be heard.
---------------------------------------------------------------------------
    \5\ Eric Lipton, Former Antiterror Officials Find Industry Pays 
Better, The New York Times, June 18, 2006.
    \6\ Morris and Morera, Center for Public Integrity, Mar. 27, 2007.
---------------------------------------------------------------------------
    It is difficult for watchdog groups like CREW, however, to get a 
handle on precisely what advisory committees are doing and the extent 
to which they are complying with the FACA's requirements. This is 
because if a committee chooses to flout those requirements and operate 
in secret, there is often no way for CREW to know until the agency 
takes an action based on the recommendations of an advisory committee. 
So, for example, CREW did not learn that an advisory committee set up 
by the Department of Education to make recommendations on how funds 
under the one-billion-dollar-a-year Reading First program should be 
disbursed until Education's Inspector General issued a report detailing 
the blatant conflicts of interest of the committee's members and the 
fact that they had operated entirely in secret. At that point CREW 
filed a lawsuit against the Department of Education and Education 
Secretary Margaret Spellings based on their failure to comply with the 
FACA in their administration of this advisory committee. While we have 
been successful in getting the agency to release many of the thousands 
of pages of documents that the committee relied upon, there is no way 
to undo the tainted funding process that led to states' funding being 
conditioned on the requirement that they purchase certain reading 
materials, particularly those produced by high-level campaign 
contributors of President Bush.
    Because litigation is often a crude and ineffective method of 
ensuring an agency's adequate and timely compliance with the FACA, we 
support the idea of building more accountability for advisory 
committees within the agency itself. Toward that end, this Committee 
should consider legislation that would require DHS to have stringent 
conflict-ofinterest controls in place when choosing membership on an 
advisory committee. Such legislation should also create a centralized 
office or position within DHS that oversees and coordinates all the 
activities of advisory committees that the agency creates. This office 
or position should also be charged with requiring any advisory 
committee under DHS to comply with all of the FACA's requirements, with 
particular focus on the public accountability provisions of the 
statute. These include the FACA's requirements that the committees be 
fairly balanced; that their meetings, records and reports be open to 
the public; and that the public receive advance notice of advisory 
committee meetings.\7\ Although Section 8 of the FACA requires agency 
heads to establish administrative guidelines and management controls 
and to maintain general information on the nature and function of 
advisory committees within their jurisdiction, more specific mandates 
are necessary. We also urge the Committee to require DHS to establish 
metrics to periodically assess the usefulness and efficiency of each 
outstanding advisory committee.
---------------------------------------------------------------------------
    \7\ See 5 U.S.C. App. Sec. 10.
---------------------------------------------------------------------------
    Beyond DHS, we also support legislation that would close up 
loopholes in the FACA that agencies have exploited to avoid operating 
in the public light. Advisory committees have discovered, for example, 
that if they set up so-called ``working groups'' that report to them, 
all of the substantive work of the committee can be done in secret by 
these sub-groups, which the courts have found need not comply with the 
FACA. Plugging this frequently exploited loophole should be a top 
priority for any legislative changes to the FACA. In addition, we 
recommend adding strict conflict-of-interest screening requirements to 
ensure that advisory committees are truly fairly balanced and not 
composed of members who have a financial stake in the outcome of the 
committee's recommendations. We recognize that legislative changes to 
the FACA are beyond the jurisdiction of this Committee, but hope that 
the Committee's work here will spur others in Congress to consider 
broader legislative actions.
    Given the critical mission with which DHS is charged, it is 
imperative that agency decision-makers are provided with 
recommendations that are the product of a disinterested committee 
representing a broad range of viewpoints and expertise. At the same 
time, the American taxpayer should not have to bear the burden of 
funding unproductive committees that have long outlasted their 
usefulness but survive only out of administrative inertia. Improving 
the efficacy and efficiency of DHS's advisory committees will fulfill 
FACA's original twin goals.
    I would be happy to answer any questions you have.

    Chairman Thompson. Thank you very much.
    We will now hear from Mr. Berkeley for 5 minutes.

   STATEMENT OF ALFRED BERKELEY, CHAIRMAN AND CEO, PIPELINE 
                      TRADING SYSTEMS, LLC

    Mr. Berkeley. Thank you, Mr. Chairman.
    I am a citizen serving on the National Infrastructure 
Advisory Council, which was established in October of 2001, 
just after the events of 9/11. It is under an executive order 
that has been renewed two or three times.
    We have been asked to opine on various questions and 
provide recommendations. We have produced 13 reports and are 
working on two now.
    The National Infrastructure Advisory Committee has members 
from various industries, as well as representatives of state 
and local government and of first responders, including fire, 
police and emergency services.
    To give you a flavor of the industry groups that 
participate, we have members from electric utilities. I am a 
representative of the financial services industry. We have CEOs 
of technology companies like Intel and Akamai. We have 
representatives from the water industry, the chemical industry, 
the airline industry, the food industry, from higher education. 
We have had members from PhRMA and from transportation, 
including trucking and rail, over and above the airline that I 
mentioned. And finally, we have had the CEO of an oil company.
    The way we operate is to be given requests to give opinions 
on particular problems. Those have come from the White House. 
They have come from the secretary of DHS. They have come from 
the secretary of health and human services. And we also, when 
we stumble upon an area in one examination and think it is 
relevant and interesting, we will suggest that and consider it 
as a group and run it by the White House.
    I would note that NIAC is a presidential advisory 
committee, administratively supported by DHS. Before DHS 
existed, we were supported by the National Security Council.
    Our current chairman, Erle Nye, is a former chairman of 
TXU, a large electric utility. He wanted me to express his 
regrets at not being able to be here today. But I mention him 
in addition to his chairmanship but also because he is very 
typical of the CEOs that we have, who have spent a lifetime in 
a particular industry. We started with eight industry sectors 
and have gradually been expanded to where we now have 17 that 
we coordinate with.
    As I said earlier, we have produced 13 reports. I want to 
mention three of them that I think have been particularly 
important and two more that have interesting characteristics.
    The most interesting, from my point of view, was the sector 
partnership model. We produced a report that looked at the 
issue of: How do we, as a country, have a sensible conversation 
between private sectors that have essentially 95 percent of the 
infrastructure and the government that has the task of 
protecting and helping make those resilient?
    That report, along with another one which was really all 
about how do we, as a country, manage the differences in risk 
that various types of threats post, came together in what is 
called the National Infrastructure Protection Plan.
    Most of the recommendations that were made in these two 
reports--how do you mechanically and how do you philosophically 
bring together private-sector and government agencies, and how 
do you put this risk-adjusted overlay on things--really have 
become implemented in a very concrete way, so much so that now 
individual states are copying this model. I heard yesterday 
that Nebraska and Iowa are looking to implement essentially a 
mirror image of this at the state level.
    So I mention those because I think it is important to 
recognize that you have got essentially 30 citizens coming 
together, answering questions, giving their best advice for a 
question asked that is relevant at a moment in time and 
hopefully for a longer period of time, and you do see the 
advice implemented.
    There are a couple other reports that I wanted to mention 
because we have the vulnerability scoring system that we 
developed for cyber attacks that has been adopted by the 
industry. And we are currently working on a chem-bio, and we 
recently turned in an avian flu report that has found 
widespread use in HHS.
    We meet publicly quarterly. We do have working groups. The 
way we organize our work is through working groups.
    And I am delighted to take any questions that you have.
    [The statement of Mr. Berkeley follows:]

             Prepared Statement of Alfred R. Kerkeley, III

    Good morning Chairman Thompson, Ranking Member King and 
distinguished Members of the Committee. My name is Alfred Berkeley and 
I am currently the Chairman and CEO of Pipeline Trading Systems and the 
past President and Vice-Chairman of the NASDAQ Stock Market, Inc. It is 
a pleasure to appear before you today to discuss the National 
Infrastructure Advisory Council (NIAC) and its role as a Presidential 
Advisory Committee.
    The National Infrastructure Advisory Council (NIAC) was created by 
Executive Order 13231 of October 16, 2001, as amended by Executive 
Order 13286 of February 28, 2003 and Executive Order 13385 of September 
29, 2005.
    The NIAC Chair and its members are appointed by the President and 
serve at the President's discretion. Currently, the NIAC Chair position 
is held by Mr. Erle A. Nye, Chairman Emeritus, TXU Corp. On behalf of 
Mr. Nye, I would like to expresses his regrets that he cannot be here 
to testify before you.
    The members of the NIAC, numbering no more than 30, are selected 
from the private sector, including industry and academia, as well as 
State and local government, and serve as Special Government Employees 
(SGEs) as defined in section 202(a) of title 18, U.S. Code.
    The members have expertise relevant to the functions of the NIAC 
with responsibilities for the security of critical infrastructure 
supporting key sectors of the economy such as banking and finance, 
transportation, energy, communications, and emergency government 
services.
    Members cannot be full-time employees of the executive branch of 
the Federal government and, in turn, are not allowed to represent the 
organizations by whom they may be employed. All members are also 
required to have appropriate security clearances.
    As prescribed by the NIAC Charter, the NIAC supports a coordinated 
effort by both government and private sector entities to advise the 
President through the Secretary of Homeland Security on issues related 
to the security of the nation's critical infrastructures
    To accomplish its objectives, the NIAC draws on the expertise of 
its members to provide advice and make recommendations that:
        a. enhance cooperation between the public and private sectors 
        in protecting information systems, supporting critical 
        infrastructures in key economic sectors, and providing reports 
        on the issue to the President, as appropriate;
        b. enhance cooperation between the public and private sectors 
        in protecting critical infrastructure assets and increasing 
        resiliency in key economic sectors and providing reports on 
        these issues to the President, as appropriate; and
        c.propose and develop ways to encourage private industry to 
        perform periodic risk assessments of its critical information 
        and telecommunications systems.
    The NIAC defers matters pertaining to National Security and 
Emergency Preparedness Communications to the President's National 
Security Telecommunications Advisory Committee (NSTAC) as such, the 
NIAC coordinates all National Security and Emergency Preparenedness 
related interdependency issues with the NSTAC.
    We have broad authority. The NIAC may consult with any interested 
party, including any private group or individual, government 
department, agency, interagency committee, or other government entity. 
Further, the NIAC may hold hearings, conduct inquiries, and establish, 
with the concurrence of the Executive Director or his or her designee, 
an executive committee, and other subcommittees, as he or she considers 
necessary or appropriate, subject to the provisions of FACA. 
Additionally, The NIAC may provide advice and recommendations to 
Federal government lead agencies that have critical infrastructure 
responsibilities and to industry sector coordinating mechanisms.
    The Council also has the authority to provide advice directly to 
the heads of other agencies that have shared responsibility for 
critical infrastructure protection, including Health and Human 
Services, Transportation, and Energy.
    The NIAC meets publicly four times each year. Two of the meetings 
are by teleconference and two are in-person. All meetings are hosted in 
Washington, D.C., in a venue open to the public. The Council uses its 
public meetings as working meetings. The standard agenda focuses on 
progress reports from working groups and on deliberations to produce 
useful, timely, and actionable recommendations. The Council is very 
active, taking on four to six major studies per year; performance goals 
are attuned to delivering quality, well researched reports between 6-12 
months from the inception of the selected studies. NIAC reports have 
drawn public and private sector interest. Public meetings are normally 
attended by several members of the Press. The President meets with the 
Council at least once a year and has directed very specific requests to 
the Council for recommendations on issues of interest. The White House 
monitors the progress of the Council's studies on a regular basis 
between meetings through a liaison in the Homeland Security Council.
    Administrative and financial support is provided by the National 
Protection and Programs Directorate of the Department of Homeland 
Security. Before the Department of Homeland Security was created, we 
were supported by the National Security Council.
    NIAC projects and study requests come from several sources:
        (1) The primary source of requests for studies is the White 
        House. An example is the Hardening the Internet Report and 
        Recommendations.(2) The DHS Secretary or heads of other 
        Departments may also ask the Council to develop 
        recommendations. (Example: In a letter dated May 17, 2006, DHS 
        Secretary Michael Chertoff and HHS Secretary Michael O. Leavitt 
        jointly requested the NIAC take on the Prioritization of 
        Critical Infrastructure in the Event of a Pandemic Influenza 
        Report and Recommendations. This represents the first time the 
        Council addressed recommendations stemming from a joint 
        request.)
        (3) The Council itself can independently decide to address 
        certain topics. As reports near conclusion, the working members 
        may deliberate on independently developed topics. The Chemical, 
        Biological, and Radiological Events (CBR) and the Critical 
        Infrastructure Workforce Working Group, currently underway, 
        represents an example of this type of charge.
    In order to generate actionable recommendations, the Council 
creates Working Groups composed of Council members supported by Study 
Groups. The Study Groups consist of member-appointed subject matter 
experts who help provide the background and subject expertise required 
to develop recommendations pertinent to critical infrastructure 
protection. These groups rely on open-source research papers, 
presentations from outside experts, and their own extensive backgrounds 
to help drive preliminary findings. Subsequently, the preliminary 
findings lead to the development of the final Working Group 
recommendations which are presented to the entire Council for review, 
approval or revision during the quarterly business meetings.
    Since the Council's inception, the NIAC has released thirteen 
reports; with two more slated for completion in the near future. Three 
particularly significant reports are the Sector Partnership Model 
Implementation Report and Recommendations, the Prioritization of 
Critical Infrastructure in the Event of a Pandemic Influenza Report and 
Recommendations and the Risk Management Approaches to Protection Report
    Released on October 11, 2005, the Sector Partnership Model 
Implementation Report offered numerous recommendations designed to 
maximize the public-private partnership as well as ensure trust and 
cultivate an effective working relationship. This report identified 
roles for:
        a. Sector Coordinating Councils (SCCs),
        b. Government Coordinating Councils (GCCs), and
        c. Partnership for Critical Infrastructure Security (PCIS).
    In this report, the NIAC concluded that successful implementation 
of the Sector Partnership Model (as laid out in the National 
Infrastructure Protection Plan) requires an unprecedented level of 
public-private cooperation to secure the Nation's critical 
infrastructure. In order to meet this challenge, the NIAC recommended 
that the Secretary exercise the Section 871 authority granted to him 
under the Homeland Security Act of 2002.
    The Council also was requested to provide guidance on a permanent 
framework for public-private sector coordination. The Council undertook 
this study quickly, drew inputs from many parties, and provided a 
recommended structure and some suggested rules of engagement.
    Recognizing the necessity of a mechanism that promotes meaningful 
dialogue on key critical infrastructure protection issues alongside 
agreement on mutual action between government and owner/operator 
entities, Secretary Chertoff accepted the NIAC findings. In March 2006, 
he established the Critical Infrastructure Partnership Advisory Council 
(CIPAC) and exempted it from the requirements of FACA. The CIPAC 
currently provides government agencies and the CI/KR owners and 
operators with an institutionalized process and single point of entry 
for programmatic planning, strategy, policy, implementation, and joint 
monitoring of progress. I believe that the critical infrastructures and 
their corresponding governmental organization are working more closely 
together to as a result of this effort.
    Perhaps the most notable and recent work of the NIAC is related to 
a potential avian influenza pandemic. The Council was requested by the 
Secretaries of Homeland Security and Health & Human Services to 
undertake an assessment of the operations of critical infrastructures 
during a pandemic, with a particular focus on protecting the workers in 
critical infrastructures who have roles critical to operations. 
Essential services must continue to be provided during a pandemic; day-
to-day activities can not be allowed to degrade due to the failure of 
critical infrastructure to include electricity, drinking water, 
banking, or health care.
    Released on January 16, 2007, the Prioritization of Critical 
Infrastructure in the Event of a Pandemic Influenza Report and 
Recommendations is already being used in pandemic planning. At the 
Council's most recent meeting on July 10, Rear Admiral W. Craig 
Vanderwagen, M.D., Assistant Secretary for Preparedness and Response at 
HHS, lauded the report for its immediate effectiveness. He stated the 
recommendations could also apply in the face of other potential events 
requiring workforce prioritization, whether it is a biological attack 
or some other naturally occurring event.
    The Risk Management Approaches to Protection Report was released in 
October of 2005. Within that report, the recommendation to create and 
standardize risk methodologies and mechanisms across the government was 
accepted and is reflected in the structure of the NIPP. As a result, 
this recommendation is being implemented in programs across DHS and the 
Sector Specific Agencies.
    I would like to offer one final example of the contributions made 
by the NIAC. The sharing of intelligence information, not just from the 
intelligence community to critical infrastructures, but also from 
industry to the intelligence community, is a fundamental aspect of 
infrastructure operations. The NIAC undertook a study that included 
representatives of the intelligence community and security personnel, 
and produced a report with recommendations to improve public-private 
sector intelligence coordination.
    The intelligence coordination report, sector partnership report, 
risk management report and pandemic report contain recommendations that 
cross multiple government agencies. The protection of critical 
infrastructures is a shared role among many agencies of the U.S. 
government, and one in which the Department of Homeland Security is 
designated as a leader. Mr. Chairman, my own view, and I believe that 
of other NIAC members, is that the Secretary of Homeland Security has 
carefully considered the recommendations of the NIAC and acts 
strategically when recommendations are received.
    Mr. Chairman, the operation of our economy and the health and 
welfare of the citizens of the United States depends upon the 
functionality of our ``critical infrastructures''. The public and 
private sectors have many efforts underway to improve the security, 
preparedness, protection, and response for these services. The NIAC 
seeks to provide guidance that will improve the overall public-private 
sector cooperation and coordination for critical infrastructure 
protection, including federal-level agencies, state and local agencies 
and first responders, and critical infrastructure owners and operators.
    I firmly believe that the members of the NIAC are making a 
significant contribution to our nation and I am proud to have been a 
member since 2002.
    Thank you for the opportunity to meet with you today. I would be 
pleased to take any questions that you may have.

    Chairman Thompson. Thank you very much.
    And let me thank all the witnesses for their testimony.
    And I will start the questioning of the witnesses with my 5 
minutes.
    Mr. Gaynor, you had personal experience on a committee. And 
we thank you for your service. And, you know, this is very 
open-ended for you, but on a scale from one to 10, one being 
low, 10 being high, how would you rank that experience?
    Mr. Gaynor. Thank you, Mr. Chairman. Good question, and a 
tough one at that.
    At moments, it was a nine or a 10. At other moments, it was 
a one. If I am looking for an average for my 4 years on the 
HSAC, in terms of getting things done, about a six.
    Chairman Thompson. Do you feel that, as a member, you were 
provided either training or information necessary for you to be 
an effective member of that committee?
    Mr. Gaynor. Yes, sir. I was a designated Federal official 
for the Emergency Response Senior Advisory Committee and the 
Critical Infrastructure Task Force. I wasn't, per se, a member 
of the committee.
    Chairman Thompson. OK, OK.
    Mr. Gaynor. But as far as my training goes, the DFO 
training was good. It was spot-on. And I had plenty of 
resources to turn to if I thought I was going astray.
    Chairman Thompson. All right.
    Ms. Weismann, I take it CREW's position with respect to 
advisory committees is that there is a need for their work to 
be done in public, from the standpoint of their deliberations 
and whathaveyou. And, if not, can you kind of share--you made 
reference to it in your testimony.
    Ms. Weismann. Yes, Mr. Chairman.
    It is not just CREW's position, it is the FACA itself. When 
Congress established this law, the Federal Advisory Committee 
Act, it was acting, I think, in part out of a recognition that 
these advisory committees play a critical role and yet, too 
often, their work is done in secret where there is just no 
level of public accountability. So the statute itself mandates 
that committee meetings be open to the public, that the working 
papers of the committee meetings be available to the public, 
that the public get advanced notice.
    There are provisions in the act under which a particular 
advisory committee can choose to close its meetings. And in the 
context of national security, one can well-understand that 
there might be any number of issues that cannot effectively be 
debated in the public, just because of the sensitive nature of 
the information that is being discussed.
    But the model that the statute set up is one where 
discussions and the work of the committee is done in the public 
light. The FACA is part of the Government in the Sunshine laws, 
and that was one of its key provisions.
    Chairman Thompson. And I see both points. Some of the 
information, obviously, because of whose hands it could fall 
in, would be not in our best interest. But to some degree, a 
lot of the discussion could very well have a place in the 
public domain.
    Mr. Beardsworth, in your experience with DHS and helping 
facilitate setting up that department, did you work with 
advisory committees specifically?
    Mr. Beardsworth. Sir, I worked specifically with two 
advisory committees during my tenure at the department. One was 
the Homeland Security Advisory Committee that I mentioned, 
where I was both an observer and a contributor, subject-matter 
expert and a consumer. And the other one was the Office of 
State and Local Training Advisory Committee to the Federal Law 
Enforcement Training Center.
    In terms of setting up the department itself, I did not 
work with any FACs, that I can recall.
    Chairman Thompson. OK. Do you see a value in advisory 
committees to the department?
    Mr. Beardsworth. Yes, sir, absolutely, without a doubt.
    And in my capacity, particularly, just to take as an 
example the critical infrastructure report and the discussion 
on resiliency that came out of that. Like Jeff, I would like to 
see some of the recommendations implemented, but I think there 
is a value in the discourse. A year and a half ago, when we 
started thinking about these issues, nobody was talking about 
resiliency. And we have managed to move the dialogue along in 
that area. And I think that is true in some other areas as 
well.
    Chairman Thompson. Mr. Berkeley, in your experience, were 
you comfortable with what you have seen as the result of your 
work being seriously considered by the department?
    Mr. Berkeley. Mr. Chairman, I have been amazed at how much 
of our deliberations and considerations have been incorporated 
in other work and in other discussions. We get a report at the 
end of each of our meetings, not on a quantitative basis, but 
on a qualitative basis, about what has happened to our reports.
    We had Admiral Vanderwagen from the Public Health Service 
at our last meeting, talking about how our pandemic report was 
finding legs in the HHS arena, not only for how the country 
might want to deal with avian flu vaccine but for other 
diseases as well.
    We, as I mentioned in my oral comments, we have found our 
work on sector coordination and the subtleties of having some 
very organized private-sector groups, like railroads, who are 
extremely organized on a national basis, have to coordinate 
every day, and the apartment industry, which is at the other 
end of the spectrum, locally owned in many cases, not well-
organized at a national level--how do we interface a set of 
government agencies with all of those? That work was all about 
making sure there wasn't a one-size-fits-all approach to the 
game.
    So we were very happy to see those ideas built in. We were 
very happy to see the risk-adjustment thinking built in to the 
National Infrastructure Protection Plan. So the answer to your 
question is, yes, I have been very impressed with that.
    Chairman Thompson. Thank you very much.
    Mr. Green, we are going to go to you.
    Mr. Shays, did you--oh, OK, you are back.
    We will now yield 5 minutes to the gentleman from 
Connecticut.
    Mr. Shays. Thank you.
    Mr. Gaynor, in your statement, on page nine, you 
recommended imposing a reporting requirement on DHS regarding 
advisory committee recommendations that would involve GAO and 
the inspector general. Are you aware of any other department or 
agency in the Federal Government that has such a reporting 
requirement?
    Mr. Gaynor. No, sir, I don't.
    Mr. Shays. You need to use your mike, sir.
    Mr. Gaynor. No, sir, I don't.
    Mr. Shays. OK.
    Mr. Gaynor. That recommendation was basically based on what 
I have seen and how----
    Mr. Shays. No, it doesn't mean it is not a good idea. I 
just was curious if you----
    Mr. Gaynor. Yes, sir.
    Mr. Shays. Let me ask you another question. Based on your 
experience, do you think DHS does an adequate job generally of 
considering recommendations from the advisory committees? Do 
you believe a lack of adopting recommendations is an accurate 
measure of an advisory committee's effectiveness?
    Mr. Gaynor. Well, sir, it depends on the gravity of the 
recommendation.
    With the Critical Infrastructure Task Force report, we 
basically offered a recommendation that changes the way that we 
look at national preparedness to one that is objectively 
measurable. If I was to ask you how much protection is enough, 
it is a tough question; you can't answer that one. But if I 
were to ask you how long you could do without it, that you are 
pretty certain to know.
    Mr. Shays. Let me ask you----
    Mr. Gaynor. So on big issues, really tough, really tough. 
But on smaller issues----
    Mr. Shays. Let me keep going here. Sorry, I don't want to 
drag it out here.
    Mr. Beardsworth, the same question.
    Mr. Beardsworth. I am smiling because--
    Mr. Shays. Use your mike.
    The question I asked is: Do you think DHS has done an 
adequate job generally of considering recommendations from its 
advisory committees? And second, do you think that a lack of 
adopting recommendations is an accurate measurement of the 
effectiveness of an advisory committee?
    Mr. Beardsworth. I will probably get myself in trouble. I 
am smiling because I would be terrified if we adopted every 
recommendation that came out of every committee.
    Mr. Shays. Right.
    Mr. Beardsworth. So, no, I don't think that is a good 
measure.
    Whether the department is adequately implementing it, the 
short answer is probably no, but there is a big ``but'' behind 
that, in that there are a lot of issues that the department is 
dealing with, and I think they are probably, across the 
spectrum of issues, things that we could use more resources in 
implementing.
    Mr. Shays. OK.
    Let me ask you, Ms. Weismann, in your testimony, on page 
two, you state that the advisory committees DHS created are 
often ``mouthpieces for an agency's predetermined agenda.'' Yet 
many of the advisory committees DHS currently oversees were 
established long before DHS was created in 2003, and many were 
established by Congress.
    What specific advisory committees are referring to, and 
which ones would you recommend be consolidated or terminated?
    Ms. Weismann. I apologize, sir. I am not sure that my 
testimony was intended to, in that aspect, reflect specifically 
what is going on at DHS. It is just a more general observation 
that we and others have had about how advisory committees often 
function, government-wide.
    I mean, we have some of the more, you know, flagrant 
examples of that. And I think it reflects why the public 
accountability provisions are so critical. You know, there was 
so much controversy, for example, over the energy task force 
that the White House set up and the fact that it seemed to be 
getting advice almost exclusively from industry 
representatives.
    And the end result of that, whether or not you agree with 
this country's energy policy, I think is a lack of public 
confidence in the products of advisory committees.
    Unfortunately, we just don't have the resources to examine 
in greater detail the specific advisory committees that are 
going on at DHS. I wish that we did. I think it is important 
for outside watchdog groups like us to keep abreast. But their 
number is so big that we can't. And, as I said----
    Mr. Shays. Let me just get to the next----
    Ms. Weismann. I am sorry.
    Mr. Shays. That is all right. It is just that we are only 
doing 5 minutes right now.
    You give the impression that you think sometimes that these 
advisory committees are rubberstamps. And yet, we have had 
testimony today that there is really a question that a lot of 
recommendations are not being implemented, which makes it sound 
like, in particular, the department is not a rubberstamp.
    Which way do you come in the balance here? Are they 
implementing enough, or are they implementing too much? And are 
the advisory committees being too much a rubberstamp for what 
the department ultimately does?
    Ms. Weismann. Well, sir, I am not prepared to say that any 
of the specific advisory committees that have been discussed by 
these panelists have been inappropriate or ineffective. I think 
it is too often a tendency, though, that we see in agency 
committees.
    I think, ultimately, though, the measure of a committee's 
effectiveness can't just be on what the final outcome is. And I 
would agree, I think, with the other panelists here who have 
suggested that that isn't the best measure of a panel's 
effectiveness.
    And, again, I don't want to consume your time, but I want 
to stress that one of the keys here is public confidence. 
Whether or not, you know, the ultimate recommendation of a 
committee is a good one or not a good one or should or should 
not be incorporated, I think it is imperative, when these 
committees are doing such important and substantive work, that 
the public have confidence that it is the product of a broad 
range of viewpoints.
    Mr. Shays. Thank you.
    Mr. Chairman, I am wondering, could I have 2 more minutes 
just to----
    Chairman Thompson. Sure.
    Mr. Shays. Thank you, Mr. Green, for not objecting to that.
    Mr. Berkeley, in your opinion, what factors are the most 
critical in ensuring that the National Infrastructure Advisory 
Council is successful?
    Mr. Berkeley. Well, I think that the most critical function 
is leadership, both at the----
    Mr. Shays. Is your mike on?
    Mr. Berkeley. I am sorry.
    Mr. Shays. You guys seem to not want to use the mikes.
    [Laughter.]
    Mr. Berkeley. I apologize.
    Mr. Shays. And I think this is the Un-American Activity 
Committee's hearing room in past years, sir.
    [Laughter.]
    Mr. Berkeley. I think that the absolute most critical thing 
in making these committees work is the leadership. And it is on 
two dimensions.
    One is the chairman of the committee itself. In our case, 
we have been lucky to have Erle Nye, who is a very 
sophisticated, balanced, probing, curious fellow, who has done 
a great job.
    And second, I think the fact that we have had a lot of 
attendance at our meeting by Secretary Chertoff, Secretary 
Leavitt, Assistant Secretary Stephan, at a high level--we have 
had multiple meetings with the president himself--that 
energizes the group to really want to do your best.
    Mr. Shays. Sure.
    Let me ask you this. There are some who argue that if an 
advisory committee does not produce a significant number of 
recommendations, then the advisory committee is basically 
underperforming or nonperforming.
    One, do you agree? And second, are there other benefits 
that are derived from the work of an advisory committee besides 
recommendations?
    Mr. Berkeley. Yes, I don't think that position makes sense 
at all. Advice is all about judgment and all about quality; it 
is not about quantity.
    The----
    Mr. Shays. Keep going.
    Mr. Berkeley. I have forgotten the second part of your 
question.
    Mr. Shays. And I am just asking, is there some other work 
besides recommendations that advisory committee do?
    Mr. Berkeley. Yes, I think one of the most interesting 
things is the energy that people like myself and the pride we 
take in being part of these advisory committees develop when 
you go back into your own community. I think it actually 
creates the sense in people that there is access for citizens 
to participate, and it does get down to the grassroots. And, 
you know, I love chatting about what we do on our committee 
when we are having dinner with friends or whatever. It is very 
energizing.
    Mr. Shays. Thank you all, all four of you.
    And thank you, Mr. Chairman, for extending my time.
    And, Mr. Green, thank you.
    Chairman Thompson. Thank you very much.
    We will now yield 5 minutes to the gentleman from Texas, 
Mr. Green.
    Mr. Green. Thank you, Mr. Chairman.
    And thank you, Congressman Shays. And if you need more 
time, I will gladly yield. Thank you.
    And thank you, friends, members of the panel, for being 
here.
    I will start with Ms. Weismann, something that you said, 
and I will paraphrase, perhaps not be as articulate as you have 
been, but I would like to say it in another way: It is not 
enough for things to be right; they must also look right.
    And it probably doesn't look right if you are going to 
resolve a consumer concern and you only hear from industry. 
Somehow the public might conclude that you have acquired enough 
intelligence from consumers. So if your advisory committee is 
going to write rules to help consumers or do something to help 
them, and you only hear from the industry that provides a 
service, you probably haven't done enough.
    To this end, I would like to just visit quickly with 
reference to the diversity of the committees, because I think 
that is important. And I believe it has been discussed 
previously, but diversity in terms of industry versus labor, 
versus consumers on the committees. Diversity of opinions, in 
my opinion, will lead to better conclusions in the final 
analysis.
    So the question that I have, Ms. Weismann, given that you 
made some comments that intrigue my thinking, how have you 
evaluated, to some extent, the diversity that you see on 
advisory committees or the advisory committee process, those 
that you have had a chance to review?
    Ms. Weismann. Thank you, sir. I think that that is often an 
area where advisory committees fall short. And I think it is 
often a failure on the part of the committee and the agency to 
appreciate what the fair balance requirement really means.
    The example you gave of an advisory committee addressing a 
consumer issue and lacking representation from consumers is 
exactly the answer that the legislators gave when they enacted 
FACA and when they put in the fair-balance requirement. That is 
precisely what they were looking at: the fact that it is not 
enough just to get experts in the field, but that really these 
advisory committees should be the product of a whole range of 
viewpoints.
    And in this day, on the kinds of issues that these 
committees are looking at, that means, you know, consumer 
groups in some instances, and it also, I believe, does get into 
issues of ethnicity and range of different backgrounds, because 
that is how you get the best product.
    Mr. Green. Thank you very much for your candid response.
    Let's just hear from Mr. Gaynor. Do you have comments that 
you would like to make, with reference to the concern?
    Mr. Gaynor. Well, sir, in my time on the HSAC, the spectrum 
of people who were on the HSAC and the senior advisory 
committees that are subordinate to it are so broad. They come 
from all sectors of the population. So I haven't----
    Mr. Green. Let me ask this, Mr. Gaynor, on the question of 
the broadness. Let's talk about the leadership, something that 
was mentioned just a moment ago, how important that leadership 
is.
    Diversity within leadership is also important. So you can 
have diversity among membership, but then the question becomes, 
is the leadership also equally as diverse?
    Have you had an opportunity to see diversity in leadership?
    Mr. Gaynor. On the HSAC--I am going through the senior 
advisory chairs----
    Mr. Green. How many have been female?
    Mr. Gaynor. One. The Private-Sector Senior Advisory 
Committee had a female chair.
    Mr. Green. Of how many now?
    Mr. Gaynor. Out of----
    Mr. Green. Of how many chairs?
    Mr. Gaynor. Out of five chairs.
    Mr. Green. How many of some ethnic minority?
    Mr. Gaynor. Good question, sir. I can think of one.
    Mr. Green. All right.
    Let's hear from Mr. Beardsworth.
    Mr. Beardsworth. In terms of diversity of background, in 
the committee that I chaired, which is the Office of State and 
Local Training for the Federal Law Enforcement Training Center, 
the positions in the charter were established as being diverse 
as to where the people came from and what their backgrounds 
were. So that was very diverse in terms of background and 
representation.
    In terms of racial diversity, I am not prepared. I would 
have to go back and look at my notes on that. It has been some 
time.
    Mr. Green. All right. Let me just ask a final panelist, as 
my time is expiring.
    Leadership, as well as the followship?
    Mr. Berkeley. Yes, we have a little bit different model in 
the NIAC, because we actually rotate leadership according to 
the task that is being done.
    And I just grabbed these reports. This one was chaired by 
Ms. Katen from Pfizer. This one was co-chaired by Margaret 
Grayson and Greg Peters. John Thompson and John Chambers co-
chaired this. John Thompson is African-American, CEO of 
Symantec. Rebecca Denlinger, who is the fire chief in Cobb 
County, and Martha Marsh, who runs Stanford University 
Hospital, co-chaired this one.
    So we----
    Mr. Green. One final question, if I may. Now, let's talk 
about diversity of background, something that Ms. Weismann has 
so eloquently addressed, and judiciously addressed, I might 
add. If all of the persons are from industry, do you really get 
the diversity you are looking for? So give me some thought on 
that, please.
    Mr. Berkeley. Well, in our particular case, we are 
typically giving advice on that interface between government 
and the private sector relating to 17 specific industrial 
sectors of the economy. And, by and large, all of the members 
of this group are CEOs of companies.
    Mr. Green. Mr. Chairman, could I ask one additional 
question?
    Chairman Thompson. Yes.
    Mr. Green. Not being there and looking at this from afar, I 
can still, in some vista of my mind, see a need for an opinion 
that is from without the industry. It just seems to me that 
that would be a benefit. Has that ever been discussed, the 
possibility of getting one other source of opinion?
    Mr. Berkeley. Yes, sir. I actually have a statistic that I 
didn't realize I would find so useful. We have had 491 
different people come participate with our working groups in 
developing our recommendations. And they have been people from 
all sorts of walks of life, relating to individual projects we 
are working on.
    Mr. Green. Thank you, sir.
    Thank you, Mr. Chairman. You have been very generous. I 
yield back my time.
    Chairman Thompson. Thank you very much.
    Mr. Shays, do you have another question?
    OK. We would like to thank our second panel of witnesses 
for their testimony. And, as you know, we are trying to look 
specifically at DHS's advisory committees and their role to 
make sure that they in fact do what Congress intends for them 
to do. So we thank you for your testimony, and if there are any 
follow-up questions, staff will be in touch.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 11:58 a.m., the committee was adjourned.]


              Appendix: Additional Questions and Responses

                              ----------                              


Question from the Honorable Bennie G. Thompson, Chairman, Committee on 
                           Homeland Security

                    Response from Randy Beardsworth

    Question: In your experience, how familiar were DHS personnel and 
Senior Leadership with the Department's Federal Advisory committees? 
Did that familiarity influence the way the advisory committees were 
utilized, or underutilized? Please explain.
    Response: The leaders within the department who had responsibility 
for a particular advisory committee were certainly familiar with that 
committee, and considering a number of factors including history, 
composition, purpose of the committee, etc., generally used the 
committee appropriately. With regard to the broader question, 
particularly as it applies to the Homeland security Advisory Committee, 
senior leadership was very familiar with the committee and the 
committee's members. This familiarity did influence how and to what 
extent the committee was used. In my observation, Secretary Ridge used 
the committee in a way that best met his needs, and Secretary Chertoff 
did likewise.

           Questions from the Committee on Homeland Security

                     Responses from Doug Hoelscher

    Question 1.: What specific guidelines and criteria are used by your 
Office to evaluate DHS Federal advisory committees?
    Response: As each committee's charter is renewed (or a new 
discretionary committee proposed for establishment), the continuing 
need for the committee must be clearly explained. The head of the 
committee's sponsoring component must provide to the Secretary an 
explanation of the committee's value to the program office and why the 
committee is essential to the conduct of the component's business. The 
component head must explain why the advice or information obtained from 
the committee is not available from within the agency or Federal 
government and cannot be obtained by other means, such as use of an 
existing committee, hiring a contractor or employee, or conducting a 
public hearing. Committees are terminated when they have completed 
their mission or they are no longer carrying out the purpose for which 
they were created.
    Additionally, during the Annual Comprehensive Review at the end of 
each fiscal year, each committee must provide an explanation of how the 
committee accomplishes the purpose for which it was established, how it 
balances membership, the frequency and relevance of meetings, and why 
the advice obtained from the committee cannot be obtained through other 
means. Responses to these questions also include examples of 
information or advice provided by the committee during the past fiscal 
year and how the advice has incorporated into department policy or 
regulations. In short, we examine concrete policy improvements.

    Question 2.: What is Mr. Chertoff's and Mr. Jackson's specific 
involvement with DHS Federal advisory committees?
    Response: Secretary Chertoff and Deputy Secretary Jackson have had 
very positive interactions with several DHS advisory committees. 
Through these interactions they have received sound advice and 
strengthened relationships with our various partners. Secretary 
Chertoff and Deputy Secretary Jackson have participated in meetings of 
the Homeland Security Advisory Council (HSAC), National Security 
Telecommunications Advisory Council (NSTAC), National Infrastructure 
Advisory Council (NIAC), Data Privacy and Integrity Advisory Committee 
(DPIAC), and the Committee on Commercial Operations of the Customs and 
Border Protection and Related Functions (COAC). In total the Secretary 
and Deputy Secretary have had 20 formal interactions with these 
advisory committees. They have also interacted informally on numerous 
occasions with advisory committee members.

    Question 3.: What mechanism, if any, does DHS rely upon to ensure 
that the composition of its Federal advisory committees are balanced in 
terms of viewpoint?
    Response: The Federal Advisory Committee Act (FACA) requires that 
``the membership of the advisory committee. . . .be fairly balanced in 
terms of points of view represented and the functions to be performed 
by the committee'' [FACA, sections 5(b)(2) and (c)]. DHS has 
standardized the format and information required for the charters of 
its advisory committee. Each charter is required to set forth the 
specific membership composition relative to the function of the 
committee. As candidates are forwarded to the Secretary for 
appointment, the program office provides an explanation of each 
candidate's qualifications for the position to which they are being 
recommended.
    Each committee has different needs and is therefore analyzed 
individually. Once the purpose of the committee is clearly understood, 
then the Department seeks diverse input from those individuals with 
relevant experience to serve. A few examples of considerations used to 
promote balance are large versus small operators, practitioners versus 
academics, owners versus employees, regional diversity, and ethnic and 
gender diversity.
    Moreover, in October, 2004, the Committee Management Officer (CMO), 
in consultation with the DHS Designated Agency Ethics Official (DAEO), 
initiated a review of the member designations of each committee to 
assure the members were appropriately appointed as Representative 
members, Special Government Employees, Ex-officio members, or Regular 
Government Employees. The reviews occurred either as candidates were 
recommended for appointment or charters were renewed. Committee 
charters reflect member designations.

    Question 4.: What specific reviews, if any, does the CMO conduct to 
evaluate DHS Federal advisory committees? Please describe.
    Response: The CMO performs several reviews to ensure FACA 
compliance and efficient operations of our committees. Examples of 
reviews performed include:
        <bullet> Review charter renewals and establishments for 
        Department-wide standardization and FACA compliance. Component 
        head charter justifications include concrete examples of how 
        the committee has added value and verification that other 
        avenues to receive similar advice are not more cost-effective 
        or available by any other means.
        <bullet> Review closed meeting Federal Register notices and 
        monitor timely publication of meeting notices.
        <bullet> Review FACA database reporting. In the last year, we 
        have improved standardization of committee meeting and 
        recommendation reporting, clarified terminology, and improved 
        auditing of FACA database entries.
        <bullet> Review committee charters and membership packages to 
        ensure diversity of viewpoints in membership.

    Question 5.: Aside from the minimum standards indicated in the 
Federal Advisory Committee Act, what additional minimal requirements, 
if any, has DHS implemented for its Federal advisory committees?
    Response: The bedrock of relevant standards comes from FACA. The 
role of the Committee Management Officer (CMO) is to monitor FACA-
compliance, establish policies and procedures governing the use of FACA 
committees, and provide guidance to committee Designated Federal 
Officers (DFOs) and their staffs. Expansion beyond those 
responsibilities goes beyond the scope of the Committee Management 
Office mandate and available resources.

    Question 6.: What specific process will be used to track, record, 
and review and possibly implement DHS Federal advisory committee 
recommendations?
    What is the timeline for implementing this process?
    Response: Tracking recommendations is a Designated Federal Officer 
(DFO) responsibility. We recently worked with each DFO to ensure that 
committee recommendations are being tracked and that committee staff 
communicate implementation feedback to their members. Each DFO is best 
positioned to track recommendations and their implementation because 
they know their committee members best, they understand their 
committee's policy intricacies thoroughly, and they have already 
established feedback mechanisms with which their committee members are 
comfortable. The CMO will continue to work with DFOs to ensure adequate 
recommendation follow-up, including review of implementation 
information in the FACA database.

    Question 7.: FACA data indicate that several DHS Federal advisory 
committees meet infrequently and/or rarely produce recommendations. 
However, DHS renews the charter of those very Federal advisory 
committees. Please provide the justification for renewing the charters 
of under/nonperforming DHS Federal advisory committees.
    Response: In Fiscal Year 2006, DHS advisory committees held 106 
meetings showing a high-level of activity. In the July 25, 2007, 
hearing I gave several concrete examples of how several DHS advisory 
committees have added value by empowering our partners and improving 
our policies. No charter is renewed without adequate justifications. 
The FACA database provides one avenue to measure committee activities. 
In reviewing the information in the ``Performance measures'' section of 
database, we have recognized that there was variance in how 
recommendations were recorded, due to differing interpretations of 
desired inputs. We are taking steps to clarify and standardize DHS's 
reporting in the GSA database.
    While the number of recommendations can be quantified, a number in 
a database does not capture the quality or depth of the 
recommendations. The dialogue between affected partners and the 
Department, and the openness of the committees, provides unparalleled 
insight into government activities.
    The only committee that can be categorized as an under-performing 
committee is the Great Lakes Pilotage Advisory Committee. We previously 
communicated to House Homeland Security Committee staff the need for 
legislative amendments to allow this committee to better function. 
Specifically, we outlined the need to relax the membership selection 
requirements.

Questions from the Honorable Bennie G. Thompson, Chairman, Committee on 
                           Homeland Security

                      Responses from Anne Weismann

    Question 1.: The Department of Transportation uses a form to gather 
data on diversity of its advisory committee members. Do you think that 
this kind of information should be gathered by all agencies? Are there 
privacy concerns that should/could prevent the collection of such 
information?
    Citizens for Responsibility and Ethics in Washington (``CREW'') 
supports the practice of the Department of Transportation to gather 
data on diversity of its advisory committee members and believes that 
all agencies should gather this kind of information. The Federal 
Advisory Committee Act (``FACA'') mandates that membership of advisory 
committees be ``fairly balanced.'' 5 U.S.C. App. Sec. Sec. 5(b)(2) and 
(c). It is difficult for Congress and the public to monitor an agency's 
compliance with this statutory requirement without the kind of data 
that the Department of Transportation gathers. We know of no privacy 
concerns that would prevent the collection of such information, 
particularly if it were used by the agency to generate statistical data 
that did not identify individual members by name.

    Question 2.: You have expressed some concerns that advisory 
committees merely ``rubber-stamp'' policies that the agency wants to 
implement and that Federal advisory committees are oftentimes only a 
``mouthpiece'' for their agency. What specific safeguards would you 
recommend to prevent this kind of activity?
    The danger that advisory committees will serve merely as a 
``mouthpiece'' for agencies that have pre-determined the outcome of the 
committees is particularly acute where the advisory committees lack 
balance, there is insufficient agency screening for conflicts of 
interest and the committees do not comply with the FACA's open-meeting 
requirements. When an agency is allowed to co-opt the federal advisory 
committee process by stacking advisory committees with members who 
share a single viewpoint the result too often is that the committee is 
inappropriately influenced by the agency--a result that is directly 
contrary to the congressional intent behind the fair balance 
requirement of the FACA.
    The FACA itself has safeguards intended to prevent advisory 
committees from becoming mere mouthpieces, such as the fair balance 
requirement and the requirement that committee meetings be open to the 
public. Nevertheless, the problem still arises because agencies do not 
sufficiently enforce those requirements and the public is unaware of 
the problem until the agency acts on the committee's recommendations, 
at which point it is often too late to effectively redress the problem. 
We therefore recommend that there be greater reporting requirements 
within agencies, including the requirement to report with greater 
specificity and make public the financial interests of each proposed 
committee member. We also recommend that each agency have a central 
office or individual responsible for ensuring agency-wide compliance 
with the FACA, that this office or individual have responsibility for 
responding to public questions or concerns about any particular 
advisory committee and that this office or individual serve as a 
repository for committee documents, including conflict-of-interest 
documentation. We also recommend that strict conflict-of-interest 
provisions be enacted that would prevent committees being staffed by 
members who have financial interests in the outcome of the committee's 
recommendations. The energy task force established by the president and 
chaired by the vice president represents a particularly egregious 
example of the harm that results when committees operate in the dark 
and get input only from industry representatives who stand to gain 
financially from the committee's output.

    Question 3.: What specific changes to FACA would you recommend? 
Please explain.
    We recommend that the FACA be amended to provide that subcommittees 
and other working groups that are tasked by an advisory committee to do 
the work of or assist the committee are also subject to the 
requirements of the FACA. Currently subgroups are not considered to be 
subject to the FACA, meaning that they can meet in secret with no 
public access to their work. For example, regulations from the General 
Services Administration, the agency charged with providing government-
wide guidance on the FACA, provide that ``[i]n general, the 
requirements of the Act and the policies of this Federal Advisory 
Committee Management part do not apply to subcommittees of advisory 
committees that report to a parent advisory committee and not directly 
to a Federal officer or agency.'' 41 C.F.R. Sec. 102-3.35. This is a 
huge loophole that agencies have exploited to the detriment of the 
public and contrary to the purpose of the intent of the FACA. Congress 
should plug this loophole by making clear that the FACA's provisions 
apply to any committee or group that is charged not only with making 
recommendations directly to the agency, but also to those charged with 
assisting any advisory committee and providing input on the nature and 
substance of any committee recommendations.
    In addition, as discussed above, the FACA should be amended to add 
stringent conflict-of-interest screening requirements that ensure not 
only fair balance in an advisory committee's membership, but also that 
no member of a committee or the employer of any committee member has a 
direct financial stake in the outcome of any committee recommendations. 
Such conflict-of interest requirements should extend to any member of a 
subcommittee tasked to do any work of or assist any advisory committee. 
To the extent an agency cannot find advisory committee members that 
would meet the conflict-of-interest requirements because of the limited 
pool of experts in any given area, the Act could provide for exemptions 
on a case-by-case basis or, alternatively, provide that such members 
are to be treated as special government employees subject to the 
conflict-of-interest provisions found at 18 U.S.C. Sec. 208.
    A third change CREW recommends is that the FACA be amended to make 
clear that any interested member of the public who seeks access to the 
papers of an advisory committee or seeks to attend any advisory 
committee meeting is within the zone of interests of the FACA's 
requirement of fair balance and has standing to sue to challenge the 
lack of fair balance of any advisory committee. The fair balance 
requirement of the Act, like the open-meeting and record disclosure 
provisions, is essential to meet the FACA's goal of making advisory 
committees accountable to the public. While courts have recognized the 
ability of a member of the public to sue to enforce the open-meeting 
and record-disclosure requirements, there is some doubt as to whether 
individuals can sue to enforce the fair balance requirement. In 
addition, the FACA should make clear that courts have jurisdiction not 
only to enjoin past agency violations of the FACA, but also to prevent 
future violations through appropriate injunctive or declaratory relief.

                                 <all>

</pre></body></html>
